                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-SI-14-30                                     Office of Audits                                 September 2014




       Audit of the Department of State
  Management of the Marine Security Guard
  Program and Plans for Program Expansion




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED 


                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office ofInspector General




                                            (U) PREFACE

       (U) This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        (U) This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observation, and a review of applicable documents.

        (U) The recommendations therein have been developed on the basis of the best
knowledge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result in more
effective, efficient, and/or economical operations.

          (U) I express my appreciation to all of those who contributed to the preparation of this
report.




                                                (U) Norman P. Brown
                                                (U) Assistant Inspector General
                                                     for Audits




                                  SENSITIVE BUT UNCLASSIFIED 

                       SENSITIVE BUT UNCLASSIFIED 



Acronyms

ARB        Accountability Review Board
CSE        Center for Security Evaluation
DoD        Department of Defense
DS         Bureau of Diplomatic Security
FAM        Foreign Affairs Manual
GAO        Government Accountability Office
HTP        High Threat Programs Directorate
MSAU       Marine Security Guard Security Augmentation Unit
MSG        Marine Security Guard
MOA        Memorandum of Agreement
OBO        Bureau of Overseas Buildings Operations
OMB        Office of Management and Budget
OIG        Office of Inspector General
OSPB       Overseas Security Policy Board
SBU        Sensitive But Unclassified
SETL       Security Environment Threat List
USMC       U.S. Marine Corps




                       SENSITIVE BUT UNCLASSIFIED 

                                          SENSITIVE BUT UNCLASSIFIED 



                                                       Table of Contents 




Section                                                                                                                                 Page 


Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................7 


Audit Objective……......................................................................................................................11 


Audit Results ................................................................................................................................11 


           Finding A. Formal Guidance and Periodic Reassessments Are Needed for the Selection 

           of Posts for Marine Security Guard Detachments and Optimal Worldwide Allocation of 

           Marine Security Guard Resources ....................................................................................11 


           Finding B. The Department’s Management of the Ongoing MSG Expansion Has Not 

           Been Fully Consistent With the Benghazi ARB Report Recommendations’ Priority of

           Strengthening Security at “High Risk, High Threat Posts” ...............................................15 


List of Recommendations ..............................................................................................................25 


Appendix 

      A. Scope and Methodology................................................................................................26 

      B. Bureau of Diplomatic Security Response .....................................................................28 

      C. U.S. Marine Corps Response ........................................................................................53 

      D. Office of Inspector General Replies to Bureau of Diplomatic Security General 

      Comments………………………………………………………………………………..59 


Major Contributors to This Report ................................................................................................68 





                                          SENSITIVE BUT UNCLASSIFIED 

                                      SENSITIVE BUT UNCLASSIFIED


                                               Executive Summary
        In the aftermath of the September 2012 attacks on the diplomatic facilities in Benghazi,
Libya, and the report of the Department of State’s (Department) Accountability Review Board
(Benghazi ARB) that studied those attacks,1 Congress directed the Secretary of Defense “to
develop and implement a plan to increase the number of [Marines] assigned to the Marine Corps
Embassy Security Group … and Marine Security Group detachments at United States embassies,
consulates, and other diplomatic facilities by up to 1,000 Marines.” Prior to this legislation,
1,012 Marines were assigned as Marine Security Guards (MSG) at posts around the world, so the
full additional 1,000 Marines, if assigned, will double the program’s size.2 The purpose of this
authorized increase was to provide the additional end strength and the resources necessary to
support enhanced U.S. Marine Corps (USMC) security at U.S. embassies, consulates, and other
diplomatic facilities, particularly at locations identified by the Secretary of State as in need of
additional security because of threats to U.S. personnel and property.3

        The Benghazi ARB report states that “[t]he recommendations in this report … err on the
side of increased attention to prioritization and to fuller support for people and facilities engaged
in working in high risk, high threat areas.” The ARB’s first recommendation states that “[t]he
Department must strengthen security for personnel and platforms beyond traditional reliance on
host government security support in high risk, high threat posts.”4 Against this backdrop,
Recommendation 11 of the Benghazi ARB report expresses the Board’s “support” of “the State
Department’s initiative to request additional Marines and expand the Marine Security Guard
(MSG) Program” and “recommends that the [Department of State] and [Department of Defense]
(DoD) identify additional flexible MSG structures and request further resources … to provide
more capabilities and capacities at higher risk posts.” The Department initiative referred to by
the ARB included the proposal to establish new MSG detachments at 50 additional high and
medium threat posts by 2014. The MSG program expansion was one part of the Department’s
“Increased Security Proposal” furnished to Congress in the fall of 2012 that also included
deployment of additional Bureau of Diplomatic Security (DS) personnel and additional embassy
security construction to be funded through reallocation of Overseas Contingency Operations
funds.5 As a result of geographic limitations in the use of the funds, the MSG expansion proposal


1
  Accountability Review Board Report on Benghazi, Dec.18, 2012, at
<http://www.state.gov/documents/organization/202446.pdf>, accessed on Jan. 25, 2013 (also referred to as the “Benghazi ARB
report”).
2
  In its response to the draft report, DS noted that on September 11, 2012, the MSG program had 1,449 authorized positions.
3
   National Defense Authorization Act for Fiscal Year 2013 (Pub. L. No. 112-239 § 404, 10 U.S.C. 5983 note, 126 Stat. 1632,
1708) (Jan. 2, 2013). Congress directed that the Secretary of Defense’s plan be developed and implemented in consultation with
the Secretary of State pursuant to the responsibility of the Secretary of State for diplomatic security under sec.103 of the
Diplomatic Security Act (22 U.S.C. 4802) and in accordance with any current memorandum of understanding between the
Department of State and the USMC.
4
  The Benghazi ARB report (pp. 3 and 8). Also, the report (p. 9) recommends that the Department “work with Congress to
expand utilization of Overseas Contingency Operations funding to respond to emerging security threats and vulnerabilities and
operational requirements in high risk, high threat posts.”
5
  The Department of State Increased Security Proposal (Nov. 2012) total requirement for FY 2013 is $1.4 billion, which consists
of three parts: (1) additional Marine Security Guard detachments ($553 million), (2) DS personnel increase ($130 million), (3)
and additional Embassy Security Construction for security upgrades and construction ($691 million).


                                                    1
                                       SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED



for new detachments at 50 high and medium threat posts was reduced to 35 posts, and ultimately,
as of June 2014, only 25 posts were scheduled for new detachments by the end of 2014.6

        Following receipt of the Benghazi ARB report recommendations and the legislation
directing increased staffing for the MSG program, the Department and the Department of
Defense (DoD) developed the implementation plan for the MSG program expansion.7 The plan
has three components: (1) adding MSG detachments to certain posts that lack a detachment, (2)
increasing staffing levels for all existing MSG detachments, and (3) creating nine Marine
Security Augmentation Units (MSAU).8 For the 25 new MSG detachments that were planned
for deployment, the detachments are being activated over an ambitious 2-year timetable, 2013–
2014. At the end of the initial phase, in December 2013, new MSG detachments had been
activated at eight of the 25 posts selected for new detachments. Through June 2014, five
additional detachments had been activated.

       The Office of Inspector General (OIG) conducted this audit to determine (1) whether
DS’s overall management of the MSG program was in accordance with program objectives and
requirements and (2) to what extent DS’s ongoing expansion of the MSG program had
implemented the Benghazi ARB report recommendations and effectively used the resources
made available.

Formal Guidance and Periodic Reassessments Are Needed for the Identification and
Selection of Posts for Marine Security Guard Detachments and Optimal Worldwide
Allocation of Marine Security Guard Resources

        OIG found that DS could not demonstrate that it had consistently managed key aspects of
the MSG program in accordance with program objectives and requirements. Specifically, DS
did not demonstrate that it had formal, documented procedures to guide the identification and
selection of overseas posts that should be afforded new MSG detachments or to guide any
reconsideration of whether existing MSG detachments should be reallocated among posts. For
example, DS’s documentation of how posts were selected to receive MSG detachments or how
they compared with other considered posts was not always complete and properly maintained.
According to DS officials, there had been limited efforts to formalize a process because of the
infrequent selection of posts for new detachments prior to the Benghazi ARB report and the 2013
legislative authority to increase staffing for the MSG program.9 In addition, OIG found that DS

6
  In November 2012, Office of Management and Budget officials reduced the list of posts from 50 to 35 because of a decision
they made that Overseas Contingency Operations funds could not be used in the Western Hemisphere. DS made adjustments to
the list of 35 in February 2014, and most of the posts removed were delayed for a variety of reasons. Also, of the 25 posts
currently scheduled for new detachments, three were not on the original list of 35. Five were alternates, and one was already
planned for activation prior to the expansion. In its general comments to the draft report (Appendix D), DS refers to 29 posts that
were scheduled for activation as of June 2014, consisting of 20 completed by the end of calendar year 2014, five awaiting
construction project completions, and four awaiting host country approval.
7
  Cable 2013 STATE 70833, “Planning for the Proposed Expansion of the Marine Security Guard Program,” June 20, 2013.
8
   The MSAUs based in Quantico, Virginia, number 122 Marines, consisting of nine squads (one for each MSG region), and are
intended to respond to temporarily heightened security conditions.
9
   According to MSG branch officials at the time we conducted audit fieldwork, DS activated six new MSG detachments from
2008 through 2011, which OIG confirmed. According to DS’s response to the draft report, the correct number of detachments
activated during that period was seven, which included
                                                         [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                      2
                                         SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED



had, prior to 2012, selected and assigned MSG detachments to posts in a manner that did not
appear to be consistent with the established primary criterion for adding MSG detachments,
which at the time was to provide internal security services to prevent the compromise of
classified information and equipment located at a post.10 For example, of 154 overseas posts that
were afforded MSG detachments as of 2012, 110 (71 percent) of the posts had medium or low
threat ratings related to stored or processed classified information, and only 44 (29 percent) were
rated high or critical for threat ratings related to stored or processed classified information. [Reda
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                                 cted]
                                                                                          (b)
                                                          As mentioned previously,        (5),
documentation regarding these MSG detachment assignments was deficient, making it difficult
                                                                                          [Reda
to ascertain which documents matched up to specific decisions. Without formal documented  cted]
procedures to guide the identification and selection of posts that should be afforded MSG (b) (7)
detachments and without proper documentation of previous selection decisions, MSG officials
                                                                                          (F)
may not apply selection criteria consistently and could overlook posts most in need of MSG
detachments. In addition, the Foreign Affairs Manual (FAM)11 requires that managers establish
systems of management controls to ensure U.S. Government activities are managed effectively
and efficiently. However, OIG found no evidence that MSG program officials were performing
periodic assessments (or reassessments) of where MSG detachments had been placed or needed
to be placed.12 Without conducting and properly documenting periodic reassessments, MSG
program officials did not know whether MSG detachments could be reallocated to better address
current security priorities.

The Department’s Management of the Ongoing MSG Expansion Has Not Been Fully
Consistent With the Benghazi ARB Report Recommendations’ Priority of Strengthening
Security at “High Risk, High Threat Posts”

         OIG found that the Department’s ongoing expansion of the MSG program has thus far
made modest contributions to strengthening security for personnel in “high risk, high threat
posts.” Specifically, the Department and the USMC have increased staffing levels at existing
MSG detachments (including those at high risk, high threat posts) and created MSAUs based in
Quantico, Virginia, for response to temporarily heightened threat conditions. However, the
Department had made only limited progress in the critical area of adding new MSG detachments
to high threat posts that were most in need of additional security.13

10
   Memorandum of Agreement between the U.S. Department of State and the U.S. Marine Corps dated May 5, 2011. The
current MOA, signed in June 2013, includes the reprioritized MSG mission: to provide protection to mission personnel and
prevent the compromise of national security information and equipment.
11
    2 FAM 021.1, “Policy and Scope.”
12
   OIG did note that reevaluations were being conducted by the Center for Security Evaluation (CSE), Office of the Director of
National Intelligence, prior to 2011. CSE provides input on behalf of the intelligence community for both the annual Security
Environment Threat List ratings and the selection of posts afforded MSG detachments to protect classified equipment and
information. According to a CSE representative, CSE had led a revalidation committee that met periodically to consider each
post’s current security needs and the possible revalidation of MSGs to other posts worldwide. This initiative was conducted to
support the Department in executing its responsibilities to ensure the protection of classified national security information in
accordance with Department policy.
13
    Initially, the MSG branch office identified 50 posts for MSG program expansion efforts. In November 2012, OMB reduced
this number of posts to 35 because of restrictions on the use of Overseas Contingency Operation funds. The three-part expansion
plan, dated May 24, 2013, consisted of the following: (1) deploying 232 Marines to certain posts that lack a detachment, (2)


                                                     3
                                        SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED


             With respect to the deployment of 25 new MSG detachments, OIG found that 15
     (60 percent) of the new posts the Department had selected for new MSG detachments had low or
     medium threat ratings for political violence or terrorism and that only 10 (40 percent) of the
     selected posts had high or critical threat ratings for political violence or terrorism.14 Because the
     Department’s plan assigns new MSG program resources to some lower threat posts but does not
     assign detachments to all high threat posts,15 the planned expansion is not fully consistent with
     the Benghazi ARB report recommendations’ focus on prioritizing security improvements at high
     risk, high threat posts or the stated purpose of the MSG expansion legislation: “to provide the
     additional end strength and the resources necessary to support enhanced USMC security …
     particularly at locations identified by the Secretary of State as in need of additional security
     because of threats to United States personnel and property.” OIG acknowledges that the
     Department considered other factors in selecting posts for new MSG detachments16 and that
     there are external factors why new MSG detachments could not be immediately deployed to
     some high threat posts.17 However, these considerations, as documented and explained by the
     Department, do not fully account for the lack of prioritization for high threat posts. Indeed, the
     lack of a formal detailed expansion plan, the MSG program’s static resources, and the ambitious
     MSG program expansion timeline may have been contributing factors. The current program
     expansion timeline put pressure on MSG officials to select posts and deploy detachments as
     quickly as possible, which may have detracted from prioritization of high threat posts.

            The imbalance between high threat posts and other posts appears striking when
     examining the creation of new detachments during the first year of the ongoing MSG expansion.
     Only two of the eight posts that received new MSG detachments in 2013 had high threat ratings


     adding 460 Marines to bolster the staffing levels for existing MSG detachments, and (3) creating nine MSAUs (122 Marines). As
     of June 2014, the number of planned activations had been further reduced by DS to 25 posts by the end of 2014. According to
     DS’s response to the draft report, the correct number of Marines to be deployed is 811 as follows: (1) 325 Marines for posts that
     lack a detachment, (2) 364 Marines to bolster staffing at existing MSG detachments, and (3) creating nine MSAUs (122
     Marines).
     14
        OIG analysis is based on the 2012 Security Environment Threat List, which is established by DS and updated annually to
     designate the overall security risk of a post based on the following risk categories: terrorism, residential crime, political violence,
     compromise of classified information and equipment, and non-residential crime. In its response to the draft report, DS stated that
     it felt the threat level analysis would be a more accurate representation if it were made using the list of 35 posts. DS calculated
     that 16 (46 percent) of the 35 posts had low or medium threat in both political violence and terrorism ratings and that 19 (54
     percent) of the 35 posts had high or critical threat ratings in either political violence and/or terrorism.
     15
         This report uses the term “high threat posts” to refer to posts that meet the Benghazi ARB report (p. 8) definition of “high
     risk, high threat” posts, which are those posts in countries with high to critical threat levels of political violence and terrorism,
     governments of weak capacity, and security platforms that fall well below established standards.
     16
         Tangible factors included [Redacted] (b) (5) requests, the ability and willingness of the host country to provide adequate
     protection to U.S. diplomatic missions, the ability of the United States to send military forces in a timely manner, and the size of
     the population at the diplomatic post. Intangible factors were also considered, which include the geo-political situation in the
     area of a given post, whether other U.S. diplomatic posts in the immediate region had a detachment, and whether the lack of a
     detachment presented a U.S. diplomatic post as a soft target.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                            4
                                               SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED



      for political violence and/or terrorism. [Redacted] (b) (5), [Redacted] (b) (7)(F)

      Moreover, the Department has committed an estimated $90 million to send MSG detachments
      to six lower threat posts, while some high threat posts remain without an MSG detachment. The
      estimated cost of establishing detachments at lower threat posts will increase to $225 million if
      the current activation schedule is realized.

               Although MSG program officials were diligently working toward the deployment of the
      25 additional MSG detachments, significant challenges remained to effectively meet the
      ambitious MSG detachment activation timelines. For example, MSG program officials had not
      developed a formal, detailed expansion plan to facilitate the expansion, and, according to MSG
      program officials, the current DS staff resources dedicated to implementing the expansion were
      insufficient to properly plan and execute the MSG program. MSG program officials stated that
      the final selection of the lower threat posts occurred because selections were based, in part, on
      the readiness of the post to accommodate an MSG detachment and not just the post’s rating for
      political violence and/or terrorism. In response to the draft report, DS stated that the original list
      of 50 was created based on threat and a variety of other factors with no considerations given to
      the readiness of a post to accept a detachment. Prioritization of which posts would be activated
      first did not occur until after the list of 35 was approved and funding was reallocated by
      Congress.

              MSG program officials were making a concerted effort to use the additional Marines as
      quickly as possible, and many of the posts with high or critical threat ratings for political
      violence and/or terrorism were not capable of supporting the physical security requirements for
      MSG detachments, or were otherwise unable to receive detachments, at the time of our audit.
      For example, OIG was advised that some high threat posts were not prioritized for MSG
      detachments because they could not readily provide secure housing for the Marines within the
      established activation timeline. [Redacted] (b) (5), [Redacted] (b) (7)(F)


                              In addition, to achieve the stated timeline for activating the remaining 25
      detachments by the end of 2014, beginning in January 2014, an average of one detachment
      would need to be activated each month over the 12-month period.

              To better align the MSG program expansion with the focus of the Benghazi ARB report
      recommendations, high threat posts without an MSG detachment should be the Department’s
      priority for assigning new detachments.


[Redacted] (b) (5), [Redacted] (b) (7)(F)

 [Redacted] (b) (5), [Redacted] Additionally, 122 Marines were re-assigned to fully staff the MSAU. In 2013, MSAU
 (b) (7)(F)
      deployed squads to 13 locations where additional security augmentation was needed.
      19
         According to the Bureau of Overseas Buildings Operations, the average cost to prepare an overseas post for an MSG
      detachment is $15 million (Post One area construction of $4 million plus MSG quarters construction of $11 million); therefore,
      the estimated cost for six posts is $90 million ($15 million multiplied by six posts).


                                                           5
                                              SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED



       Capital funding was made available to support the preparation of high threat posts to
accommodate new MSG detachments (as well as other purposes).20 Therefore, it is imperative
that MSG branch officials take the necessary measures to perform a comprehensive staffing and
resource assessment and, as appropriate, obtain and use the available resources to prepare
remaining high threat posts without adequate security protection to receive an MSG detachment.

        OIG is making six recommendations to DS that are intended to improve the Department’s
management of the MSG program. These recommendations are also intended to help program
officials achieve the security improvement goals established by the Benghazi ARB report
recommendations and facilitated by the MSG expansion legislation and the resources made
available to the Department for MSG capital expenses.

Management Comments

       In June 2014, OIG provided a draft of this report to DS; the Bureau of Overseas
Buildings Operations (OBO); the Center for Security Evaluation (CSE), Office of the Director of
National Intelligence; and the USMC. DS was the primary action office. DS and the USMC
responded to the report’s recommendations. Those responses are provided in Appendices B and
C, respectively. Neither OBO nor CSE provided comments on the draft report.

       In its June 2014 response (see Appendix B), DS generally concurred with all six of the
recommendations. However, DS did not specify all the actions it planned to take to establish a
process to periodically reassess the worldwide allocation of Marine Security Guard detachments
and adjust the assignment of Marine Security Guards and detachments among posts.

       DS also discussed the progress it had made in its program expansion and included
comments that were not specific to the recommendations. OIG considered DS’s comments and
incorporated them into the report as appropriate and also responded to DS’s general comments
(see Appendix D).

        Although not required to comment, the USMC concurred with the report’s six
recommendations (see Appendix C). However, for Recommendations 4 and 6, the USMC stated
that any long-term plan that prioritizes the use of MSG program expansion resources and any
assessment of the MSG program needed to include the USMC’s participation. As a result of
these comments, OIG revised draft report Recommendations 4 and 6 to DS to include the
USMC’s input before DS specifies the actions to be taken to resolve the recommendations.



20
   Consolidated and Further Continuing Appropriations Act, 2013 (Pub. L. No. 113-6, div. F, title VII, §1707). The authorizing
legislation funding security improvements states in part: “Diplomatic and Consular Programs, $3,210,650,000, of which
$918,435,000 is for Worldwide Security Protection (to remain available until expended); and Embassy Security, Construction,
and Maintenance, $1,272,200,000, of which $1,261,400,000 is for the costs of worldwide security upgrades, acquisition, and
construction, as authorized: Provided, that funds made available under this subsection shall be used for operations at high threat
posts, security programs to protect personnel and property under the Chief of Mission authority, preventing the compromise of
classified United States Government information and equipment, and security construction or upgrade requirements at
Department of State facilities worldwide, including for Worldwide Security Upgrades.”


                                                     6
                                        SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED


       Based on the responses, OIG considers Recommendations 1, 3, 4, and 6 resolved,
pending further action, and Recommendations 2 and 5 unresolved. DS’s responses to the
recommendations and OIG’s replies are presented after each recommendation, and USMC’s
comments relevant to OIG’s recommendations and OIG’s replies are also presented after each
recommendation.
                                                        Background

Accountability Review Board Findings on Benghazi

         On December 18, 2012, the Benghazi ARB21 published its findings on the September
2012 attacks on various compounds in Benghazi, Libya. The attacks involved arson, small-arms
and machine-gun fire, rocket-propelled grenades, and mortars that killed four U.S. citizens and
severely wounded two U.S. citizens and three Libyan contract guards. The report concluded that
few of the local guard forces present during the attacks had actually assisted in the defense of the
facilities. As a result, the Benghazi ARB report’s first recommendation stated that “[the]
Department must strengthen security for personnel and platforms beyond traditional reliance on
host government security support in high risk, high threat posts”22 and expand the MSG
program.23 Former Secretary of State Hillary Rodham Clinton accepted all of the
recommendations in the Benghazi ARB’s report and directed that actions commence to
implement them.

        On January 2, 2013, the President signed the 2013 National Defense Authorization Act,
which authorized the assignment of up to 1,000 additional Marines to support enhanced USMC
security at U.S. embassies, consulates, and other diplomatic facilities, particularly at locations
identified by the Secretary of State as in need of additional security because of threats to U.S.
personnel and property.24 Congress directed the Secretary of Defense “to develop and
implement a plan to increase the number of [Marines] assigned to the Marine Corps Embassy
Security Group … and Marine Security Group detachments at United States embassies,
consulates, and other diplomatic facilities by up to 1,000 Marines.”25 Prior to this legislation,
1,012 Marines were assigned as MSGs at posts around the world, so the full additional 1,000
Marines, if assigned, would double the program’s size.26


21
   Per 12 FAM 030, “Accountability Review Board,” the Secretary of State convenes an ARB to thoroughly investigate security-
related incidents to determine accountability and promote and encourage improved security programs and practices.
22
   The Benghazi ARB report (p. 8) defines “high risk, high threat” posts as those in countries with high to critical threat levels of
political violence and terrorism, governments of weak capacity, and security platforms that fall well below established standards.
23
   The recommendation included language expressing ARB’s “support” of “the State Department’s initiative to request additional
Marines and expand the Marine Security Guard (MSG) Program” and recommended that “the [Department] and DoD identify
additional flexible MSG structures and request further resources … to provide more capabilities and capacities at higher risk
posts.” (Benghazi ARB report, p. 10).
24
   National Defense Authorization Act for Fiscal Year 2013 (Pub. L. No. 112-239 § 404, 10 U.S.C. 5983, note 126, Stat. 1632,
1708) (Jan. 2, 2013).
25
   Congress directed that the Secretary of Defense’s plan be developed and implemented in consultation with the Secretary of
State pursuant to the responsibility of the Secretary of State for diplomatic security under section 103 of the Diplomatic Security
Act (22 U.S.C. 4802) and in accordance with any current memorandum of understanding between the Department of State and
the USMC.
26
   In its response to the draft report, DS noted that on September 11, 2012, the MSG program had 1,449 authorized positions.


                                                      7
                                         SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED



    Department and U.S. Marine Corps Cooperation on Embassy Security

            The Department and the USMC have had a long history of cooperating on embassy
    security issues, and the present day MSG program is considered to have begun with the Foreign
    Service Act of 1946. The Act authorized the Secretary of the Navy to assign Marines overseas to
    be custodians at any embassy, legation, or consulate.27 The Department and the U.S. Navy
    signed the initial Memorandum of Agreement (MOA) that established the terms and conditions
    for the program on December 15, 1948.

             Since then, the program has grown considerably, from Marines at two posts to 154
    detachments as of October 2012.28 Until the June 2013 update to the MOA, the MSG program
    had two missions: (1) the primary mission, the protection of classified equipment and
    information at designated U.S. diplomatic and consular facilities, and (2) the secondary mission,
    the protection of U.S. citizens and property located at designated U.S. diplomatic and consular
    facilities during exigent circumstances.29

            The Deputy Assistant Secretary for International Programs is responsible for establishing
    the policies, coordination, and supervision necessary to implement the MSG program within DS
    and the Department. Within International Programs, the Director of Special Programs and
    Coordination is responsible for providing guidance and policy assistance in support of the MSG
    program. Within DS, the Marine Security Guard program office has primary responsibility for
    the MSG program, which includes coordination with the USMC on plans and policies and the
    coordination of day-to-day operations of the MSG program, including the activation of MSG
    detachments. At overseas posts, the Chief of Mission exercises operational authority over MSG
    detachments, and DS Regional Security Officers serve as the operational supervisors for MSG
    detachments. The Regional Security Officers ensure that the MSG detachment is assigned duties
    within the parameters set forth in the MOA and is responsible for the proper utilization, support,
    and safety of the Marines assigned.

            The role of the USMC in the MSG program includes identifying, screening, training, and
    assigning Marines to MSG detachments at overseas posts. The USMC Embassy Security Group
    Regional Command exercises administrative authority over the Marines assigned to MSG
    detachments in nine respective regions.30 Each Regional Command conducts visits to each
    detachment; inspects each detachment at least twice annually; reviews operations and
    maintenance budgets; and advises the Regional Security Officers at post on performance,
    discipline, administration, utilization, safety, training, morale, welfare, conduct, and living
    conditions.

    27
         10 U.S.C. 5983, “State Department: Assignment of Enlisted Members as Custodians of Buildings in Foreign Countries.”
[Redacted] (b) (5), [Redacted] (b) (7)(F)
    29
       Exigent circumstances are defined as urgent temporary circumstances that require immediate aid or action. These would
    include situations where the MSG force would have a defensive role, such as providing protection during catastrophic events or
    on-compound threats.
    30
       The nine regions are Region 1– Eastern Europe and Eurasia, Region 2 – Near East and South Asia, Region 3 – East Asia and
    Pacific, Region 4 – Western Hemisphere–South, Region 5 – Western Europe and Scandinavia, Region 6 – Eastern and Southern
    Africa, Region 7 – North and West Africa, Region 8 – Central Europe, and Region 9 – Western Hemisphere–North.


                                                          8
                                             SENSITIVE BUT UNCLASSIFIED
                                              SENSITIVE BUT UNCLASSIFIED




                CSE provides input on behalf of the intelligence community for both the annual Security
        Environment Threat List (SETL) ratings and the selection of posts afforded MSG detachments to
        protect classified equipment and information.

                 On June 28, 2013, as part of the MSG expansion process, the Department and the USMC
        updated the MSG mission statement, under the MOA, and announced31 that there was now equal
        weight given to the protection of classified information and the protection of people and
        facilities. [Redacted] (b) (5), [Redacted] (b) (7)(F)
   [Redacted] (b) (5), [Redacted] (b) (7)(F)




        Bureau of Diplomatic Security

                 High Threat Programs Directorate

                The HTP Directorate is responsible for evaluating, managing, and mitigating the security
        threats at high threat diplomatic posts. Further, the Deputy Assistant Secretary is responsible for
        evaluating, managing, and mitigating the security threats, as well as for the direction of resource
        requirements at high threat diplomatic missions. As of November 2013, this new directorate had
        under its purview 28 high threat posts within 19 countries. [Redacted] (b) (5), [Redacted] (b) (7)(F)

   [Redacted] (b) (5), [Redacted] (b) (7)(F)
                 Security Environment Threat List

                Under the Diplomatic Security Act of 1986, as amended (22 U.S.C. 4802(a)(2)(C)), the
        Secretary of State is responsible for conducting threat analysis programs on behalf of the
        Department. DS conducts and disseminates the SETL annually, reflecting threat ratings for all
        Foreign Service posts permanently staffed by direct-hire U.S. personnel who operate under the
        Chief of Mission. The SETL may also reflect threat ratings for some selected Foreign Service
        posts where operations have been temporarily suspended or closed but where threat ratings
        continue to be relevant to certain DS programs. Various threat categories, such as Terrorism and
        Political Violence, Human Intelligence and Technical Intelligence are evaluated, and the threat
        ratings of low, medium, high, and critical are assigned. The two ratings most directly connected
        to the safety of personnel are terrorism and political violence. When assessing the appropriate

        31
           Cable 2013 STATE 72611, “Corrected Modification to the Marine Security Guard Mission Statement,” June 28, 2013.
        32
            Watchstanders are American employees authorized by a Chief of Mission to act as a “cleared American presence for a facility
        to require security integrity.”
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                            9
                                               SENSITIVE BUT UNCLASSIFIED
                                        SENSITIVE BUT UNCLASSIFIED



rating for terrorism, consideration is given to the capability of groups to execute a local attack
against U.S. interests. The rating for political violence considers the threat of civil disorder and
inter-state or intra-state conflicts.

          MSG Detachment Coordination and Post Selection

        The MSG program office coordinates input from Department bureaus, such as OBO and
the Department’s regional bureaus, and it chairs the Activation/Deactivation Working Group.34
The program office provides advice on MSG detachment selections, activations, and
deactivations. OBO plays an important role in this process because of its oversight of compound
security construction projects and assistance with required security upgrades, such as upgrades to
Marine Security Guard Residences prior to the activation of an MSG detachment. The Regional
Security Officers at posts selected for MSG detachments also provide input as to what must be
done to meet requirements prior to activation. However, the selection of posts that will be
afforded MSG detachments is ultimately approved or denied by an interagency committee
comprising members from the following bureaus and offices: DS Deputy Assistant Secretary for
International Programs (Chair); the DS Office of Regional Directors; Executive Directors of the
regional bureaus; OBO; the Bureau of the Comptroller and Global Financial Services (formerly
Resource Management); CSE; and the USMC (Headquarters) Plans, Policies and Operations
Unit.

          Identifying Posts for MSG Program Expansion

       The MSG program expansion was one part of the Department’s “Increased Security
Proposal” furnished to Congress in the fall of 2012 that also included deployment of additional
DS personnel and additional embassy security construction.35 The Department initiative for the
MSG program expansion, referred to in the ARB report, included the proposal to establish new
MSG detachments at 50 additional high and medium threat posts by 2014. As a result of an
Office of Management and Budget (OMB) decision (November 2012) that Overseas
Contingency Operations funds could not be used in the Western Hemisphere, the Department
subsequently modified the planned expansion of detachments to include only 35 posts.
Ultimately, in June 2014, these posts were further reduced by DS based on various factors to
only 25 posts scheduled for new detachments by the end of 2014.36 MSG branch officials used
the SETL ratings for political violence and terrorism, as well as for intelligence-related ratings




34
   The Activation/Deactivation Working Group is composed of individuals from OBO, the Bureau of the Comptroller and
Global Financial Services (formerly Resource Management), CSE, USMC, and various other components within DS.
35
   The Department of State Increased Security Proposal (Nov. 2012) total requirement for FY 2013 was $1.4 billion, which
consisted of three parts: (1) additional Marine Security Guard detachments ($553 million), (2) DS personnel increase ($130
million), (3) and additional Embassy Security Construction for security upgrades and construction ($691 million).
36
   Three of the 25 posts were not part of the original 35, five were alternates, and one was planned for activation prior to the
expansion and would be considered an extra post. Most of the remaining 16 posts, which were part of the original 35, were
delayed for a variety of issues that affected their activation.


                                                     10
                                         SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED



and other tangible37 and intangible factors,38 to recommend the initial posts for MSG
detachments.

        Following receipt of the Benghazi ARB report’s recommendations and the legislation
directing increased staffing for the MSG program, the Department of State and DoD developed
the plan to implement the MSG program expansion. On June 20, 2013, the Secretary issued a
Department-wide cable39 that presented details of a three-part plan for the expansion of the MSG
program as follows: (1) adding MSG detachments to certain posts that lack a detachment, (2)
increasing staffing levels for existing MSG detachments, and (3) creating nine MSAUs.40 The
cable also stated that [Redacted] (b) (5), [Redacted] (b) (7)(F)


                                                    Audit Objective
      OIG conducted this audit to determine (1) whether DS’s overall management of the MSG
program was in accordance with program objectives and requirements and (2) to what extent
DS’s ongoing expansion of the MSG program had implemented the Benghazi ARB report
recommendations and effectively used the resources made available.

                                                      Audit Results

Finding A. Formal Guidance and Periodic Reassessments Are Needed for the
Identification and Selection of Posts for Marine Security Guard Detachments
and Optimal Worldwide Allocation of Marine Security Guard Resources

        OIG found that DS could not demonstrate that it had consistently managed key aspects of
the MSG program in accordance with program objectives and requirements. Specifically, DS
did not demonstrate that it had formal, documented procedures to guide the identification and
selection of overseas posts that should be afforded new MSG detachments or to guide any
reconsideration of whether existing MSG detachments should be reallocated among posts. For
example, DS’s documentation of how posts were selected to receive MSG detachments or how
they compared with other posts being considered was not always complete and properly
maintained. DS also did not provide OIG documentation of an established process or
requirement to periodically reassess the allocation of MSG detachments around the world to
determine whether those resources were being used as effectively as possible.


37
   Tangible factors included [Redacted] (b) (5) requests, the ability and willingness of the host country to provide adequate
protection to U.S. diplomatic missions, the ability of the United States to send military forces in a timely manner, and the size of
the population at the diplomatic post.
38
   Intangible factors were also considered, which included the geo-political situation in the area of a given post, whether other
U.S. diplomatic posts in the immediate region had a detachment, and whether the lack of a detachment presented a U.S.

diplomatic post as a soft target. 

39
   Cable 2013 STATE 70833. 

40
   The MSAUs based in Quantico, Virginia, which number 122 troops, consist of nine squads (one for each MSG region) and are 

intended to respond to temporarily heightened security conditions. 



                                                     11
                                         SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED


             The FAM41 states that all Department managers must establish systems of management
     controls to ensure U.S. Government activities are managed effectively and efficiently and further
     states that management control systems must incorporate the Government Accountability Office
     (GAO) internal control standards. These standards include control activities, which are policies
     and procedures, techniques, and mechanisms that enforce management’s directives. According to
     MSG program officials, there had been limited efforts to formalize the deliberation process
     because of the infrequent selection of posts to receive new detachments prior to the Benghazi
     ARB report.42 MSG program officials told OIG that the working group used the MSG Decision
     Matrix to facilitate the identification and the selection of posts for new detachments,43 and DS
     officials stated that the Decision Matrix adequately documented a standard process. The
     Decision Matrix consists of a number of weighted factors, such as the SETL ratings, post size,
     post security, post profile, and post processing/storage of classified information, and it ranks
     each of the posts accordingly. A compilation of these factors based on the designed weight
     results in the mathematical process ranking of all U.S. diplomatic facilities for appropriateness
     and/or necessity for an MSG detachment.

             The MSG Decision Matrix was developed using the commercial decision support
     software Expert Choice.44 Various factors that were used in the Decision Matrix are used as
     inputs to Expert Choice. The output from running the software is a listing of posts ranked in
     priority order for receiving new MSG detachments. The decision process for selecting posts for
     new detachments is not based solely on the software output; other factors are also considered,
     such as the Long Range Overseas Building Plans for new embassy and consular construction [Re
     [Redacted] (b) (5), [Redacted] (b) (7)(F)                                                    dac
                                                                                                  ted]
     Although DS has used a decision matrix and Expert Choice software as tools to facilitate the (b)
     selection of posts for new MSG detachments, MSG branch officials did not have formalized (5),
     guidance or procedures regarding how to identify and evaluate posts for MSG detachment [Re
     consideration. Such procedures are needed to help guide incoming Foreign Service officers dac
     responsible for managing the MSG program and to maintain best practices and continuity in ted]
     program procedures. OIG found, however, that in the case of the six posts most recently      (b)
                                                                                                  (7)
     activated pre-Benghazi, DS failed to consistently maintain adequate documentation of how MSG
                                                                                                  (F)
     detachments were selected or how they compared with other posts being considered.
     Documentation of the process was missing for one of the six posts, and the other documentation
     was fragmented, making it difficult to ascertain which documents matched up to specific
     decisions. From the time of OIG’s initial request, it took DS one year to thoroughly review its
     files and provide even this limited documentation.45

     41
          2 FAM 021.1, “Policy and Scope.”
[Redacted] (b) (5), [Redacted] (b) (7)(F)


     43
        MSG branch officials use the MSG Decision Matrix as an analytical tool to assist senior management in developing
     recommendations for the addition and deletion of MSG detachments from future activations.
     44
        Expert Choice is based on the Analytic Hierarchy Process. It is intended to help decision makers arrive at a decision and
     provide a rationale for it.
     45
        OIG submitted multiple requests to DS for this information from April to September 2013. However, in April 2014, DS finally
     provided OIG the documentation, including decision memoranda, meeting notes, and other supporting documentation. OIG


                                                         12
                                             SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED




         OIG also reviewed the complete list of posts to which MSG detachments were assigned
as of 2012. OIG found that the Department had selected and assigned MSG detachments to
posts in a manner that did not appear to be consistent with the pre-Benghazi primary criterion for
adding MSG detachments, which was to provide internal security services to prevent the
compromise of classified information and equipment located at the principal building(s) on the
diplomatic and/or consular premises.46 For example, of 154 overseas posts that were afforded
MSG detachments as of 2012, 110 (71 percent) of the posts had medium or low threat ratings
related to stored or processed classified information, and only 44 (29 percent) were rated high or
                                                                                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
critical for threat ratings related to stored or processed classified information.

                                                                              Without formal
documented procedures to guide and document the identification and selection of posts that
should be afforded MSG detachments, there is no assurance that DS will apply proper selection
criteria consistently and, as a result, could overlook the posts that warrant MSG detachments the
most.

        Furthermore, without a current established requirement and process to periodically
reassess the worldwide allocation of MSG detachments, managers have no way to assess whether
they are using all available resources (available MSG detachments) as effectively as possible and
they will have difficulty in identifying and correcting any previous misallocations of resources.
Although OIG found that a reevaluation process led by CSE existed prior to 2011,47 there was no
documentation showing that either CSE or the MSG program had a current process for
reassessment of posts that were afforded MSG detachments.

        OIG has previously noted the need for improved management of the MSG program, and
GAO has previously recommended that DS improve its program planning. In the last OIG audit
report48 of the MSG program, in 1997, OIG recommended that the Assistant Secretary for
Diplomatic Security develop a methodology, based on risk management principles and the
Overseas Security Policy Board (OSPB) standards, to prioritize the need for MSG detachments.
The finding stated that a methodology for establishing MSG detachments at overseas posts
should greatly improve the current process and provide an objective analysis based on DS’s risk
management policy. The recommendation was considered implemented and was therefore
closed in 1998. In response to the draft report, DS explained that the 1997 OIG report prompted
DS and the USMC to add Annexes D and J to the MOA between the Department and the USMC
for the operational supervision of the MSG Program. Annex D provides procedures for
establishing MSG detachment size and for periodic assessments of the size of existing
detachments, and Annex J provides procedures for activations and deactivations.

received the documents in response to an OIG memorandum only after a memorandum was sent to the Director, Special 

Programs and Coordination, Diplomatic Security, with the intent of closing OIG’s open data requests. 

46
   MOA between the U.S. Department of State and the U.S. Marine Corps (May 5, 2011). The current MOA, signed in June 

2013, includes the reprioritized MSG mission: to provide protection to mission personnel and prevent the compromise of national

security information and equipment. 

47
   According to a CSE representative, CSE had led a committee that met periodically to consider each post’s current security

needs and the possible reallocation of MSGs to other posts worldwide. 

48
   Audit of the 24 Hour Protection of Classified Materials (SIO-A-97-16, March 1997). 



                                                   13
                                       SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED




        GAO reported in 200949 on weaknesses in the Department’s strategic planning related to
DS’s international affairs programs, finding weaknesses in the Department’s strategic planning
and performance measurement efforts. For example, GAO reported that the Department had
significantly expanded DS without the benefit of strategic planning to ensure that DS’s missions
and activities addressed the Department’s priority needs. According to GAO, “State has
expanded Diplomatic Security without the benefit of solid strategic planning; neither State’s
departmental strategic plan nor Diplomatic Security’s bureau strategic plan specifically addresses
the bureau’s resource needs or its management challenges.” The report criticized the reactive
nature of DS to certain events and how it did not benefit from adequate strategic guidance. As of
May 2014, GAO had not closed out the report’s one recommendation for the Department to
conduct a strategic review of the demands on DS.

      OIG makes the following recommendations to improve the Department’s long-term
management of the Marine Security Guard program:

            Recommendation 1. OIG recommends that the Bureau of Diplomatic Security Deputy
            Assistant Secretary for International Programs establish guidance and procedures to
            formalize and document the decision process used in the identification and selection of
            posts for Marine Security Guard detachments.

            DS Response: DS agreed with this recommendation, stating that it is in the process of
            expanding these documents (the Memorandum of Agreement – MOA, Appendix J, dated
            June 28, 2013) into formalized standard operating procedures to guide the identification
            and selection of posts for activating and deactivating MSG detachments.

            OIG Reply: OIG considers the recommendation resolved. This recommendation can be
            closed when OIG reviews and accepts documentation showing that DS has established
            guidance and procedures for formalizing and documenting the decision process used to
            identify and select posts for MSG detachments.

            Recommendation 2. OIG recommends that the Bureau of Diplomatic Security Deputy
            Assistant Secretary for International Programs establish a process to periodically reassess
            the worldwide allocation of Marine Security Guard detachments and adjust the
            assignment of Marine Security Guards among posts, as necessary, to maintain optimal
            allocation of available Marine Security Guard resources among all posts.

            DS Response: DS agreed with this recommendation, stating that it has an “established
            formal procedure used to continually identify and assess the worldwide allocation of
            marine security guard assets.”

            OIG Reply: Although DS stated that it agreed with the recommendation, OIG considers
            the recommendation unresolved. DS needs to specify the actions it plans to take to

49
     State Department: Diplomatic Security’s Recent Growth Warrants Strategic Review (GAO-10-156, Nov. 2009).


                                                    14
                                        SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



       establish a process to periodically reassess the worldwide allocation of MSG detachments
       and adjust the assignment of Marine Security Guards and detachments among posts as
       necessary. The process that DS referred to in its response is a semiannual review by the
       USMC of post-specific operations and not a worldwide assessment and comparison of all
       posts to determine whether MSG assets are optimally allocated among them.

       Recommendation 3. OIG recommends that the Bureau of Diplomatic Security
       incorporate into the Foreign Affairs Manual (12 FAM 430) and the Memorandum of
       Agreement with the U.S. Marine Corps the formal guidance and procedures to be used in
       the identification and selection of posts for Marine Security Guard detachments and the
       periodic reassessment and reallocation of available Marine Security Guard detachments
       among all posts.

       DS Response: DS agreed with the recommendation, stating that it “will codify its
       existing procedures into the Foreign Affairs Manual (12 FAM 430) and the Memorandum
       of Agreement (MOA) with the USMC. These procedures will incorporate all variables
       that DS and the USMC currently consider when selecting posts for Marine security guard
       (MSG) detachments.”

       OIG Reply: OIG considers the recommendation resolved. The recommendation can be
       closed when OIG reviews and accepts documentation showing that DS has codified into
       the FAM and MOA the formal guidance and procedures to be used in the identification
       and selection of posts for MSG detachments and the periodic reassessment and
       reallocation of available MSG detachments among all posts.

Finding B. The Department’s Management of the Ongoing MSG Expansion
Has Not Been Fully Consistent With the Benghazi ARB Report
Recommendations’ Priority of Strengthening Security at “High Risk, High
Threat Posts”
        OIG found that the Department’s ongoing expansion of the MSG program has thus far
made only modest contributions to strengthening security for personnel in “high risk, high threat
posts.” Specifically, the Department and the USMC have increased staffing levels at existing
MSG detachments (including those at high risk, high threat posts) and created MSAUs based in
Quantico, Virginia, for deployment to diplomatic facilities in temporarily heightened security
situations. However, the Department has made only limited progress in the critical area of
adding new MSG detachments to high threat posts that are most in need of additional security.
Table 1 shows the progress made in the three parts of the expansion program.




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


    Table 1. MSG Program Expansion Progress
       MSG Staffing       MSG Staffing                                                                  Percent
                          (35 Post Plan)   Actually Deployed                                           Completed
     Increase Category
    New Detachments
                                                232                            104                           45
    Increase of Existing
    Detachments                                 460                            154*                          33
    MSAUs
                                                122                            122                          100
    * Derived from OIG analysis based on the MSG expansion plan, which determined that 89 Marines have been
    deployed to increase the size of existing detachments at non-high threat posts [Redacted] (b) (5), [Redacted] (b) (7)(F)

    Source: OIG analysis derived from the review of DS’s three-part MSG expansion plan, dated May 2013, and updated
    MSG expansion plan through June 2014.


    Planned Expansion Shows Insufficient Prioritization of Assigning New Detachments to
    High Threat Posts

            With respect to the deployment of 25 new MSG detachments, OIG found that 15 (60
    percent) of the new posts selected by the Department for new MSG detachments had low or
    medium threat ratings for political violence and/or terrorism and only 10 (40 percent) of the
    selected posts had high or critical threat ratings for political violence and/or terrorism.50 Because
    the Department’s plan assigns new MSG detachments to some lower threat posts but does not
    assign detachments to all high threat posts,51 the planned expansion is not fully consistent with
    the Benghazi ARB report recommendations’ focus on prioritizing security improvements at high
    risk, high threat posts or the stated purpose of the MSG expansion legislation “to provide the
    additional end strength and the resources necessary to support enhanced USMC security …
    particularly at locations identified by the Secretary of State as in need of additional security
    because of threats to United States personnel and property.” As discussed in the sections that
    follow, OIG acknowledges that the Department considered other factors in selecting posts for
    new MSG detachments and that there were external factors as to why new MSG detachments
    could not be immediately deployed to some high threat posts and had to be deployed to other
    posts. 52 However, these considerations, as documented and explained by the Department, do not
    fully account for the lack of prioritization for high threat posts. Indeed, the lack of a formal

    50
       OIG analysis is based on the 2012 SETL, which is established by DS and updated annually to designate the overall security
    risk of a post based on the following risk categories: terrorism, residential crime, political violence, compromise of classified
    information and equipment, and non-residential crime. In its response to the draft report, DS stated that it felt the threat level
    analysis would be a more accurate representation if it were made using the list of 35 posts. DS calculated that 16 (46 percent) of
    the 35 posts had low or medium threat in both political violence and terrorism ratings and that 19 (54 percent) of the 35 posts had
    high or critical threat ratings in either political violence and/or terrorism.
    51
       This report uses the term “high threat posts” to refer to posts that meet the Benghazi ARB report (p. 8) definition of “high risk,
    high threat” posts, which are those posts in countries with high to critical threat levels of political violence and terrorism,
    governments of weak capacity, and security platforms that fall well below established standards.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                         16
                                             SENSITIVE BUT UNCLASSIFIED
                                              SENSITIVE BUT UNCLASSIFIED



      detailed expansion plan, the MSG program’s static resources, and the ambitious MSG program
      expansion timeline may have been contributing factors. The current program expansion timeline
      put pressure on MSG officials to select posts and deploy detachments as quickly as possible,
      which may have detracted from prioritization of high threat posts.

             The imbalance between high threat posts and other posts appears striking when
      examining the creation of new detachments during the first year of the ongoing MSG expansion.
      (Table 2 presents the posts that have activated MSG detachments in 2013 as part of the
      expansion). [Redacted] (b) (5), [Redacted] (b) (7)(F)


                                                                         Moreover, the Department had
      committed an estimated $90 million to send MSG detachments to these six lower threat posts,
      while some high threat posts remained without an MSG detachment. The estimated cost of
      establishing detachments at lower threat posts will increase to $225 million if the current
      activation schedule is realized.
[Redacted] (b) (5), [Redacted] (b) (7)(F)




             The Benghazi ARB report set forth 29 recommendations to the Department in six core
      areas. The first core area pertained to “Overarching Security Considerations.” The report
      recommended that the Department strengthen its support for personnel and platforms beyond

 [Redacted] (b) (5), [Redacted] (b) (7)(F)



      54
        According to OBO, the average cost to prepare an overseas post for an MSG detachment is $15 million (Post One area
      construction, $4 million, plus MSG quarters construction, $11 million); therefore, the estimated cost for six posts is $90 million
      ($15 million times six posts).


                                                           17
                                               SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED



local guard forces “in high risk, high threat posts.” The report stated that “[t]he
recommendations in this report … err on the side of increased attention to prioritization and to
fuller support for people and facilities engaged in working in high risk, high threat areas.”55
Recommendation 11 stated that “[t]he Board supports the State Department’s initiative to request
additional Marines and expand the Marine Security Guard (MSG) Program – as well as
corresponding requirements for staffing and funding.” Recommendation 11 also “recommends”
that the Department and DoD “identify additional flexible MSG structures and request further
resources … to provide more capabilities and capacities at higher risk posts.”

Lack of Strategic Planning and Staffing Considerations

        As of December 31, 2013, the MSG program had activated eight MSG detachments.
However, the MSG branch office had not developed a formal, detailed plan to expand the
program to include staffing considerations. For example, at the outset of the audit, OIG
requested from DS documentation on the MSG expansion plan. The initial document provided to
OIG in May 2013, regarding the expansion, consisted of a schedule showing the planned 35
posts and year of activation with no other details. Also, the documents provided by the MSG
branch office lacked specific details about construction timelines; operational environments; and
inherent risks and threats to achieving the activation of MSG detachments at selected posts,
including planned staffing needs. In October 2013, the MSG branch provided OIG with a
revised expansion schedule with some added detail, such as region, month, and date of
activation, but that information was still inadequate for a project of this size (with an estimated
cost to the Department in excess of $500 million). MSG branch office officials stated that they
had found it difficult to create a formal detailed plan for the expansion because of their static
resources and the ambitious MSG program expansion timeline.

          MSG branch officials expressed concern about whether the size of the MSG branch
office was sufficient to meet the additional workload generated by the MSG program expansion.
The MSG branch office at the time of our audit consisted of three DS Foreign Service officers
supported by one Civil Service employee and five contractors to address strategic, operational,
fiscal, logistical, and administrative tasks. Although the MSG program received congressional
authorization to nearly double the number of USMC personnel at overseas posts, the staffing
level for the MSG branch office has remained static. For example, an MSG official expressed
concern that putting additional Marines in the field would increase the time-consuming
administrative issues associated with the program and that the office was not staffed adequately
to handle the corresponding increase.

        GAO standards for internal controls in the Federal Government emphasize the
importance of having control activities such as detailed project plans.56 A formal, detailed
expansion plan is an important program management control that can help managers compare
actual results with expected results and to make adjustments as necessary to close any variance.
55
    Benghazi ARB Report (pp. 3 and 8). The report (p. 9) also recommends that the Department “work with Congress to expand

utilization of Overseas Contingency Operations funding to respond to emerging security threats and vulnerabilities and 

operational requirements in high risk, high threat posts.” 

56
   Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, Nov. 1999). 



                                                  18
                                      SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED




         MSG program officials did not recognize the importance of strategic planning and project
management, and they should have set out a 2-year project plan proposing adequate resources,
including staffing, to plan and activate detachments at posts rated as high threat in the categories
of political violence and terrorism. The primary goal of the authorizing legislation and the
Benghazi ARB report recommendations was not to expand the program for the sake of expansion
but rather to increase security at high threat posts and to therefore safeguard U.S. personnel and
facilities considered at highest risk. Further, without an assessment of the adequacy of the
current staff resources, the Department cannot be assured that the level dedicated to the MSG
branch office is sufficient to complete the planning and execute the program expansion, thereby
hampering efforts to increase security for U.S. personnel at high threat posts as recommended by
the Benghazi ARB report.

Post Readiness, Physical Security, and Other Reasons High Threat Posts Were Not
Selected for MSG Detachments

        According to MSG branch officials, the selection of posts with low or medium threat
levels in lieu of posts with higher threat levels was based, in part, on the readiness of the
respective post to accommodate an MSG detachment. For example, some high threat posts were
not prioritized for MSG detachments because they could not readily provide secure housing for
the Marines within the established activation timeline. All MSG detachments require secure
Marine housing, a Commander’s office, a change/response room, and a Post One area.57
[Redacted] (b) (5), [Redacted] (b) (7)(F)


              In addition, MSG program officials were making a concerted effort to put into
service the additional Marines approved through the National Defense Authorization Act as
quickly as possible. According to MSG program officials, the National Security Council
established the timelines for the expansion of the MSG program.

      According to OBO, it costs $15 million on average to activate an MSG detachment at a
post. This cost is due to the necessary preparations to meet the security standards required for
MSG detachments, in accordance with OSPB security standards. [Redacted] (b) (5), [Redacted]
                                                                                (b) (7)(F)




       According to MSG program officials, other reasons why certain high threat posts were not
selected for MSG detachments were due to the [Redacted] (b) (5), [Redacted] (b) (7)(F)

57
  Post One is the name given to the main MSG watch post on a compound manned 24-hours a day. Larger compounds may have
additional posts.


                                                19
                                    SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



[Redacted] (b) (5), [Redacted] (b) (7)(F)                                                            . This
scenario provides a prime example of why MSG program officials must operate under a formal,
documented process as recommended in the preceding paragraphs and must develop a
comprehensive, long-term plan for the MSG program expansion. Such a plan should include
deployment of detachments to these posts as soon as possible after[Redacted] (b) (5), [Redacted] (b) (7)(F)


Meeting the Timeline for Completion of MSG Program Expansion

      As of December 31, 2013, the MSG branch office had activated eight MSG detachments.
However, both OBO and the USMC officials expressed concerns about meeting the timelines for
the remaining posts. Officials from the MSG branch office stated that the required coordination
and collaboration with other Department components and the USMC would make it difficult to
meet the shortened MSG program expansion timeline. In addition, according to the officials, the
MSG branch office is required to closely coordinate with the HTP Directorate in the expansion
process to high threat posts, which has added decision making delays. Table 3 presents the posts
and the MSG detachments activated or to be activated as part of MSG program expansion.




                                              20
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


[Redacted] (b) (5), [Redacted] (b) (7)(F)




        The timeline established for expanding the program put pressure on the MSG branch
office to select posts and deploy detachments as quickly as possible, which may have detracted
from prioritization of high threat posts. During the initial expansion planning, MSG program
officials’ long-term goal was to activate all detachments in 3 years, which was an ambitious
goal given that immediately prior to Benghazi, internal guidance allowed a minimum of 18
months to activate a new detachment. Specifically, DS and the USMC had initially established a
timeline to activate 10 detachments during 2013, while the timeline for the remaining

                                              21
                                  SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED



detachments was under review. However, MSG branch officials stated in July 2013 that officials
from the National Security Council required that the MSG branch office instead complete the
expansion of MSG detachments to posts within 2 years.

         However, to achieve the stated timeline of activating the 25 detachments by the end of
2014, beginning on January 1, 2014, an average of one detachment would need to be activated
each month over this 12-month period. From March through June 2014, five detachments had
been activated, with 12 remaining to be activated by December 31, 2014. This would bring the
total of activated detachments to 25 (eight activated in 2013 plus the 17 in 2014).

        The focus of the expansion should not be on how quickly MSG detachments could be
assigned to posts but rather to assign MSG detachments to the right high threat posts, that is,
those with the greatest need for enhanced security to protect U.S. personnel and facilities. To
properly align with the priority of the Benghazi ARB report recommendations, all high threat
posts without MSG detachments should be the priority. Capital funding was made available to
support the preparation of high threat posts to accommodate new MSG detachments (as well as
other purposes).58 The accelerated timeline of 2 years to activate 25 MSG detachments is more
than ambitious given that the normal time to activate a detachment is 18 months. Therefore, it is
imperative that MSG branch officials take the necessary measures to perform a comprehensive
staffing and resource assessment and, as appropriate, request and use the appropriated resources
to prepare all remaining high threat posts without adequate security protection for an MSG
detachment.

          Recommendation 4. OIG recommends that the Bureau of Diplomatic Security Deputy
          Assistant Secretary for International Programs, in consultation with the U.S. Marine
          Corps, develop a comprehensive, long-term plan that prioritizes the use of dedicated
          Marine Security Guard program expansion resources for those embassies and other
          diplomatic facilities that are high threat posts.

          DS Response: DS concurred with this recommendation, stating that it has “a
          comprehensive, long-term plan to activate [MSG] detachments at appropriate high threat,
          high risk (HTHR) posts, which will be formally codified.”

          USMC Response: USMC also concurred with this recommendation, stating that it
          “budgets for and provides the funding” for the MSG program and that any long-term plan
          “should include Marine Corps participation.”



58
   Consolidated and Further Continuing Appropriations Act, 2013 (Pub. L. No. 113-6, div. F, title VII, §1707). The authorizing
legislation funding security improvements states in part: “Diplomatic and Consular Programs, $3,210,650,000, of which
$918,435,000 is for Worldwide Security Protection (to remain available until expended); and Embassy Security, Construction,
and Maintenance, $1,272,200,000, of which $1,261,400,000 is for the costs of worldwide security upgrades, acquisition, and
construction, as authorized: Provided, that funds made available under this subsection shall be used for operations at high threat
posts, security programs to protect personnel and property under the Chief of Mission authority, preventing the compromise of
classified United States Government information and equipment, and security construction or upgrade requirements at
Department of State facilities worldwide, including for Worldwide Security Upgrades.”


                                                    22
                                        SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



OIG Reply: Based on the USMC response, OIG revised the recommendation to have DS
consult with the USMC to ensure that full consideration is given to meeting the requisite
funding and manpower requirements for the MSG program. OIG considers the
recommendation resolved. This recommendation can be closed when OIG reviews and
accepts documentation showing that DS has developed a comprehensive, long-term plan
that prioritizes the use of MSG program expansion resources for high threat posts fully
consistent with the Benghazi ARB report recommendations.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security Deputy
Assistant Secretary for International Programs ensure that the Bureau of Diplomatic
Security’s High Threat Programs Directorate shifts resources currently being used to
expand Marine Security Guard detachments from the low and/or medium threat posts to
high threat posts.

DS Response: DS agreed with the recommendation “in principle,” stating that it has
“worked closely” with the USMC “to develop a long-term plan for providing the
manpower necessary to activate and/or expand” MSG detachments at high threat posts.
DS also stated that it will “quickly deploy these forces once the necessary infrastructure
is in place.”

OIG Reply: Because DS did not indicate full agreement with the recommendation, OIG
considers the recommendation unresolved. As explained in the report, shifting resources
to high threat posts that are most in need of additional security aligns with the priorities
set forth by the ARB report recommendations. This recommendation can be closed
when OIG reviews and accepts documentation demonstrating that the Bureau of
Diplomatic Security’s High Threat Programs Directorate has prioritized resources to meet
the security needs of high threat posts.

Recommendation 6. OIG recommends that the Bureau of Diplomatic Security, in
consultation with the U.S. Marine Corps, conduct a comprehensive staffing and resource
assessment of the Marine Security Guard program and, based on the assessment results,
judiciously allocate appropriate resources to facilitate compliance with the Benghazi
Accountability Review Board report to upgrade security for personnel at high threat
posts.

DS Response: DS agreed with the recommendation, stating that it recognizes the need to
appropriately staff and resource the MSG program to facilitate compliance with the
Benghazi ARB report. DS also said that it had added one contractor and one special
agent position to DS’s Office of Special Programs and Coordination (DS/IP/SPC), that a
second new special agent position was being created, and that two other temporary
positions had been added. According to DS, it also plans on adding one General Schedule
position to DS/IP/SPC to provide additional oversight for MSG issues.




                                   23
                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


USMC Response: USMC stated that any assessment concerning the MSG program
needed to include Marine Corps participation because the Marine Corps budgets for and
provides funding to the Department to pay for the MSG program.

OIG Reply: Based on the USMC response, OIG revised the recommendation to have DS
consult with the USMC to ensure complete Marine Corps participation in any
assessments concerning the MSG program. OIG considers the recommendation resolved.
This recommendation can be closed when OIG reviews and accepts documentation
showing that DS has conducted a comprehensive staffing and resource assessment of the
DS/MSG program and, based on the results, has judiciously allocated appropriated
resources to facilitate compliance with the Benghazi Accountability Review Board report
to upgrade security for personnel at high threat posts.




                                  24
                      SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



                                List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Diplomatic Security Deputy Assistant
Secretary for International Programs establish guidance and procedures to formalize and
document the decision process used in the identification and selection of posts for Marine
Security Guard detachments.

Recommendation 2. OIG recommends that the Bureau of Diplomatic Security Deputy Assistant
Secretary for International Programs establish a process to periodically reassess the worldwide
allocation of Marine Security Guard detachments and adjust the assignment of Marine Security
Guards among posts, as necessary, to maintain optimal allocation of available Marine Security
Guard resources among all posts.

Recommendation 3. OIG recommends that the Bureau of Diplomatic Security incorporate into
the Foreign Affairs Manual (12 FAM 430) and the Memorandum of Agreement with the U.S.
Marine Corps the formal guidance and procedures to be used in the identification and selection
of posts for Marine Security Guard detachments and the periodic reassessment and reallocation
of available Marine Security Guard detachments among all posts.

Recommendation 4. OIG recommends that the Bureau of Diplomatic Security Deputy Assistant
Secretary for International Programs, in consultation with the U.S. Marine Corps, develop a
comprehensive, long-term plan that prioritizes the use of dedicated Marine Security Guard
program expansion resources for those embassies and other diplomatic facilities that are high
threat posts.

Recommendation 5. OIG recommends that the Bureau of Diplomatic Security Deputy Assistant
Secretary for International Programs ensure that the Bureau of Diplomatic Security’s High
Threat Programs Directorate shifts resources currently being used to expand Marine Security
Guard detachments from the low and/or medium threat posts to high threat posts.

Recommendation 6. OIG recommends that the Bureau of Diplomatic Security, in consultation
with the U.S. Marine Corps, conduct a comprehensive staffing and resource assessment of the
Marine Security Guard program and, based on the assessment results, judiciously allocate
appropriate resources to facilitate compliance with the Benghazi Accountability Review Board
report to upgrade security for personnel at high threat posts.




                                         25
                             SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED



                                                                                                              Appendix A
                                            Scope and Methodology

        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this audit to determine whether the Bureau of Diplomatic Security (DS) had
managed the Marine Security Guard (MSG) program in accordance with program objectives and
requirements and to what extent DS’s ongoing expansion of the MSG program had implemented
the Benghazi Accountability Review Board (ARB) report recommendations and effectively used
the resources made available. This audit was conducted as part of a series of concurrent audits
examining the security posture of overseas diplomatic posts, including physical and procedural
security measures, as well as threat information sharing. The audit teams coordinated their
efforts to present a comprehensive view of the Department’s management of its tiered security.

        The Office of Audits conducted this audit from April to December 20131; subsequently
during April 2014, upon receipt of additional documentation from the Department that was
requested during the initial fieldwork period; and again in June 2014, upon the receipt of an
updated MSG Expansion Schedule. All audit work was performed in the Washington, DC,
metropolitan area. OIG conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that OIG plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objective. OIG believes that the evidence obtained provides a
reasonable basis for the findings and conclusions based on the audit objective.

        To obtain background information, OIG researched and reviewed Federal laws and
regulations relating to the MSG program, such as the Memorandum of Agreement between the
Department and the U.S. Marine Corps (USMC),2 the Foreign Affairs Manual and the Foreign
Affairs Handbook, a Government Accountability Office (GAO) report,3 and prior OIG reports.
The audit team also met with key personnel, including Department officials involved in the MSG
program and expansion process. In addition, the team met with outside officials from the USMC
and the Center for Security Evaluation.

Prior Reports

        OIG reviewed prior GAO and OIG audit and inspection reports to identify information
previously reported relating to the MSG program. OIG had conducted an audit in 19974 that
identified several issues with the MSG program, such as Marines had been assigned to non-
essential locations at a post and that posts with more critical needs did not have detachments
while lower threat posts had large detachments.


1
  OIG also received updates from DS on changes to the expansion plan subsequent to the end of audit fieldwork, which are 

incorporated into Tables 1 and 3 in the report.

2
  OIG reviewed the 2008 and 2011 Memoranda of Agreement as well as the 2013 revisions. 

3
  State Department: Diplomatic Security’s Recent Growth Warrants Strategic Review (GAO-10-156, Nov. 2009).

4
   Audit of the 24 Hr Protection of Classified Materials (SIO-A-97-16, March 1997). 



                                                   26
                                       SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Use of Computer-Processed Data

        In the course of this audit, OIG reviewed hard-copy documentation provided by DS’s
Office of Special Programs, Marine Security Guard Branch, but the audit team did not utilize
electronically processed data as evidence. Thus information systems controls were not
significant to the audit objective, and it was not necessary to assess the usage of controls for
computer-processed data.

Review of Internal Controls

       OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG gained an understanding of the Department’s processes for
monitoring and expanding the MSG program. OIG reviewed guidance such as the Memorandum
of Agreement, the Foreign Affairs Manual, the Foreign Affairs Handbook, and other Department
guidance such as cables and memoranda to determine our findings. OIG’s conclusions are
presented in the Audit Results section of this report.




                                           27
                               SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED


                                                                                  Appendix B
                 Bureau of Diplomatic Security Response

                                              United States Department of State

                                             Assistant Secretary ofState
                                             for Diplomatic Security
                                              Washington, D.C. 20520




SENSITIVE BUT UNCLASSIFIED

INFORMATION MEMO FOR INSPECTOR GENERAL LINICK - OIG

FROM:      DS- Gregory B.   Sta~
SUBJECT: Draft Report Response - Audit of State Management of the Marine
         Security Guard Program and Plans for Program Expansion - Report
         Number AUD-SI-14-:XX, dated June 2014

    Attached are the DS comments and draft report responses to
Recommendations 1, 2, 3, 4, 5, and 6 of the subject report.

Attachments:
      Tab I -Draft Report Response, Recommendation One
      Tab 2 -Draft Report Response, Recommendation Two
      Tab 3 -Draft Report Response, Recommendation Three
      Tab 4 - Draft Report Response, Recommendation Four
      Tab 5 - Draft Report Response, Recommendation Five
      Tab 6 -Draft Report Response, Recommendation Six
      Tab 7 - DS Comments for Draft Report




                     SENSITIVE BUT UNCLASSIFIED



                                28
                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





Approved: OS - Gregory B. Starr

Drafted:    DS/MGT/PPD - [Redacted] (b) (6) ext. [Redacted] (b) (6) home/cell: [Redacted] (b) (6)


      Cleared:     [Redacted] (b) (6)




                                    29 

                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                       SENSITIVE BUT UNCLASSIFIED

    (U) Audit of De1lartment of State Management of tb e Marine
Security Guard Program and Plans for Program Expansion, Re(lor·t
                    Number 14-AUD-SI-XX, June 2014

(U) Recommendation 1: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs establish guidance and
procedures to formalize and document the decision process used in the
identification and selection of posts for Marine Security Guard detaclunents.

(SBU) DS Response (06/16/14): DS concurs with this recommendation. DS has
an established procedure to fonnalize and doctunent the decision process used in
the identification and selection of posts for activating and deactivating Marine
secmity guard (MSG) Detachments. The Memorandum of Agreement (MOA)
between the Department and the U.S. Marine Corps (USMC), Almex J:
"Activations and Deactivations," provides for a specific working group of
stakeholders to detennine MSG activations and deactivations. The current MOA
and Aimex J, dated June 28, 2013, is an exhibit of the 12 F AM 4 30. DS is also in
the process of expanding these documents into fonnalized standard operating
procedures.




                       SENSITIVE BUT UNCLASSIFIED




                                 30 

                     SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





Approved:   DS - Gregory B. Starr (ok)
            [Redacted] (b) (6)
Drafted:

Analyst:    [Redacted] (b) (6)

Cleared:    [Redacted] (b) (6)




                          31 

              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                        SENSITIVE BUT UNCLASSIFIED

    (U) Audit of De1lartment of State Management of tbe Marine
Security Guard Program and Plans for Program Expansion, Re(lor·t
                    Number 14-AU D-SI-XX, June 2014

(U) Recommendation 2: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs establish a process to
periodically reassess the worldwide allocation of Marine Security Guard
detachments and adjust the assigmnent of Marine Security Guards among posts, as
necessary, to maintain optimal allocation of available Marine Security Guard
resources among all posts.

(SBU) DS Response (06/16/2014): DS concurs with this recommendation. The
Deputy Assistant Secretary for International Programs (DS/IP) has an established,
fonnal procedure used to continually identify and assess the worldwide allocation
of Marine security guard assets. The Marine Security Guard (MSG) Program, in
coordination with United States Marine Corps (USMC) counterparts, may adjust
the assignment of Marine security guards, as necessary, to maintain optimal
allocation of resources. The Memorandum of Agreement (MOA) between the
Department and the USMC, Annex D, "Detaclm1ent Size and Table of
Organization Modifications,, provides for a basic MSG detachment size,
guidelines for MSG detaclunent modifications, and a joint post review of
detaclunent right sizing. The joint post review is conducted at least twice a year
and recommendations (if any) are reported back to Marine Corps Embassy
Security Group (MCESG) and the Marine Security Guard Staff (DS/SPC/MSG)
for action. The current MOA Armex D, dated June 28, 2013 is an exhibit of 12
FAM430.
(SBU) To supplement post security during periods of increased threat, very
important person (VIP) visits, or special events, Marine Security Guard
Augmentation Units (MSAU) were also established. These units deploy on a
temporary basis, provide the capability and resources to quickly augment existing
MSG detachments when the need arises. Regional security officers can request
MSAU support by contacting DSIIP (or the High Threat Programs Directorate
(DSIHTP) if the requesting post falls under its purvie\.v) directly or by submitting
an on-line request for future MSG resource requirements. Requests are validated

                        SENSITIVE BUT UNCLASSIFIED




                                 32 

                     SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





                        SENSITIVE BUT UNCLASSIFIED
                                       -2-
by DS/IP and DS/HTP when appropriate, and reviewed by USMC to ensure they
fall within the parameters of the MOA. Once validated, DSIIP can quickly deploy
MSAU.




                      SENSITIVE BUT UNCLASSIFIED




                                33 

                    SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





Approved:    DS - Gregory B. Starr (ok)
            [Redacted] (b) (6)
Drafted:

Analyst:    [Redacted] (b) (6)

            [Redacted] (b) (6)
Cleared:




                           34 

               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                       SENSITIVE BUT UNCLASSIFIED


   (U) Audit of Department of State Management of the Marine
Security Guard Program and Plans for Program Expansion, Report
                Number· 14-AUD-SI-XX, June 2014

(U) Recommendation 3: OIG recommends that the Bureau of Diplomatic Security
incorporate into the F oreign Affairs Manual (12 F AM 430) and the Memorandum
of Agreement with the U.S. Marine Corps, the fonnal guidance and procedures to
be used in the identification and selection of posts for Marine Security Guard
detaclunents and the periodic reassessment and reallocation of available Marine
Security Guard detachments among all posts.

(SBU) DS Respon se (06/16/201.4): DS concurs with this recommendation.
Procedures to identify and select posts exist, but not in the fonn of fonnal
guidance. DS will codify its existing procedures into the Foreign Affairs Manual
(12 FAM 430) and Memorandum of Agreement with the U.S. Marine Corps
(USMC). These procedures will incorporate all variables that DS and the USMC
currently consider when selecting posts for Marine security guard (MSG)
detaclunents.

(SBU) The Deputy Assistant Secretary for International Programs (DS/IP) has an
established, fonnal procedure to continually identify and assess the worldwide
allocation ofMSG assets. The Memorandum of Agreement (MOA) between the
Department and the USMC, Annex D: "Detaclunent Size and Table of
Organization Modifications," provides for a basic MSG detachment siz e,
f:,ruidelines for MSG detachment modifications, and a joint post review of
detachment right sizing. The joint post review is conducted at least twice a year,
and recommendations (if any) are reported back to the Marine Co11)s Embassy
Security Group (MCESG) and the Marine Security Guard Staff (DS/SPC/MSG)
for action. The current MOA Annex D, dated June 28, 2013, is an exhibit of 12
FAM430.




                       SENSITIVE BUT UNCLASSIFIED




                                 35 

                     SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





               SENSITIVE BUT UNCLASSIFIED



Approved: DS- Gregory B. StatT (ok)

Drafted:   [Redacted] (b) (6)

Analyst:   [Redacted] (b) (6)

Cleared:   [Redacted] (b) (6)




               SENSITIVE BUT UNCLASSIFIED




                         36 

             SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                       SENSITIVE BUT UNCLASSIFIED

    (U) Audit of De1lartment of State Management of tbe Marine
Security Guard Program and Plans for Program Expansion, Re(lor·t
                    Number 14-AU D-SI-XX, June 2014

(U) Recommendation 4: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs develop a comprehensive,
long-tem1 plan that prioritizes the use of dedicated Marine Security Guard program
expansion resources for those embassies and other diplomatic facilities that are
high threat posts.

(SBU) DS Response (06/16/2014): DS concurs with this reconunendation. DS
has a comprehensive, long-tenn plan to activate Marine security guard (MSG)
detachments at appropriate high tlu·eat, high risk (HTHR) posts, which will be
fonnally codified. This plan has allowed DS program officials to activate MSG
detachments more rapidly than in the past, when it took 18-24 months to activate
an MSG detachment. For instance, only seven MSG detachments were activated in
 the five years prior to the Benghazi-related detachment activations, while 12 MSG
detaclunents were activated in the 10 months between August 2013 and May 2014.
This plan allows the Department to expedite establishing the minimum adequate
 level of infrastructure required to activate MSG detaclunents at HTHR posts .[Red
[Redacted] (b) (5), [Redacted] (b) (7)(F)                                      acte
                                                 . This plan also allows the   d]
                                                                               (b)
Department to quickly increase staffing levels at newly designated HTHR posts to
                                                                               (5),
ensure MSG detachments are appropriately sized. The Department can also use    [Red
Marine Security Guard Augmentation Units (MSAUs) to inm1ediately supportacte     a
 staff increase, then replace MSAUs with MSGs when the MSG schoolhouse can     d]
 train additional Marines.                                                     (b)
                                                                               (7)
                                                                               (F)




                       SENSITIVE BUT UNCLASSIFIED




                                 37 

                     SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





Approved:    DS - Gregory B. Starr (ok)

Drafted:    [Redacted] (b) (6)

Analyst:     [Redacted] (b) (6)

Cleared:    [Redacted] (b) (6)




                           38 

               SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                       SENSITIVE BUT UNCLASSIFIED

    (U) Audit of De1lartment of State Management of tb e Marine
Security Guard Program and Plans for Program Expansion, Re(lor·t
                    Number 14-AU D-SI-XX, June 2014

(U) Recommendation 5: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs, in coordination with the
Bureau of Diplomatic Secw·ity,s High Threat Programs Directorate, shift resources
currently being used to expand MSG detachments from the low and/or mediwn
threat posts to high threat posts.

(SBU) DS Response (06/16/2014): DS concurs with this reconunendation in
principle. The Deputy Assistant Secretary (DAS) for International Programs
(DS/IP) and the DAS for High Threat Programs (DS/HTP) worked closely with the
United States Marine Corps (USMC) to develop a long-tenn plan for providing
the manpower necessary to activate or expand Marine security guard (MSG)
detaclunents at high threat, high risk (RTHR) posts. DS will quickly deploy these
forces once the necessary infrastructure is in place to support the MSG
detaclunents.

(SBU) The development of Uris infrastructure has been particularly challenging
due to the limited availability of space at some HTHR posts, and the requirement
that MSG detaclm1ents[Redacted] (b) (5), [Redacted] (b) (7)(F) . DS and the
USMC stand ready to either use Marine Security Augmentation Units (MSAUs) or
oilier MSGs to quickly staff the facilities as the list of designated HTHR posts
adjusts to match volatile threat environments. The absence or adequate
infrastructure exposes MSGs to unacceptable levels of threat and risk while
concurrenUy diminishing the MSGs' ability to carry out their mission of protecting
personnel and infom1ation. Delaying the activation ofMSG detachments at posts
that do have the required infrastructure in place until detachments in all the HTHR
posts are activated provides no advantage and delays activations for those posts
that are prepared to receive an MSG detachment.




                       SENSITIVE BUT UNCLASSIFIED




                                 39 

                     SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





Approved:    DS - Gregory B. Starr (ok)

Drafted:    [Redacted] (b) (6)
Analyst:    [Redacted] (b) (6)

Cleared:    [Redacted] (b) (6)




                          40 

              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                        SENSITIVE BUT UNCLASSIFIED

    (U) Audit of De1lartment of State Management of tbe Marine
Security Guard Program and Plans for Program Expansion, Re(lor·t
                    Number 14-AU D-SI-XX, June 2014

(U) Recommendation 6: OIG recommends that the Bureau of Diplomatic Security
conduct a comprehensive staffing and resource assessment of the MSG program
and, based on the assessment results; judiciously allocate appropriated resotrrces to
facilitate compliance with the Benghazi Accountability Review Board report to
upgrade security for personnel at high threat posts.

(SBU) DS Response (06/16/2014): Diplomatic Security concurs with this
recommendation. DS recognizes the need to appropriately staff and resotrrce the
Marine Security Guard (MSG) Program to facilitate compliance with the Benghazi
ARB report. One contractor and one special agent position were added to the
Office of Special Programs and Coordination (DSIIP/SPC) to pem1anently increase
staffing, in August and October, respectively. Additionally, a second new special
agent position is in the process of being created. Two positions oflimited
duration, one contractor position and one special agent, were temporarily added to
provide surge capacity. A General Schedule (GS) position will also be added to
DS/IP/SPC to provide additional representation, support, continuity, and oversight
for MSG issues with senior-level counterparts in the Department of Defense and
Department of State.




                        SENSITIVE BUT UNCLASSIFIED




                                 41 

                     SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





Approved: DS -Gregory B. Starr (ok)
Drafted:    [Redacted] (b) (6)

Analyst:    [Redacted] (b) (6)
           [Redacted] (b) (6)
Cleared:




                          42 

              SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                       SENSITIVE BUT UNCLASSIFIED

    (U) Audit of De1lartment of State Management of tbe Marine
Security Guard Program and Plans for Program Expansion, Re(lor·t
                    Number 14-AUD-SI-XX, June 2014


(SBU) DS Comments {6/16/2014):

Page 1:

   • Paragraph (Para) One - The report erroneously states there are 1,012
      Marines assigned as Marine securi ty guards (MSGs). On September 11,
      2012, the MSG Program had 1,449 authorized positions. Congress
      authorized up to 1 ,000 additional MSGs. This brings the new total up to
      2,449 authorized positions. Recommend that OIG clarifies what it defmes as
      "assigned" vice "authorized."

   • Para Two - The report states funding limitations resulted in the reduction of
      50 new detachments to 35 new detachments. The statement is misleading.
      The Department intended to ask Congress to approve the Department's
      request to reallocate Overseas Contingency Operations (OCO) funds to fund
      all 50 posts. Before the Department went to Congress to request the
      reallocation, the Office of Management and Budget (OMB) determined there
      were regional limitations to where the OCO funding could be used. OMB
      only authorized the Department to request the re-appropriation of OCO
      ftmds for the 35 non-Western Hemisphere Affairs (WHA) posts on the list.

Page 2:

   • The report states that ultimately only 23 of the original 35 posts have been
     scheduled for new detachments. This is incorrect. The numbers are:

          o [Redacted] (b) (5), [Redacted] (b) (7)(F)




                       SENSITIVE BUT UNCLASSIFIED




                                 43 

                     SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





                                 SENSITIVE BUT UNCLASSIFIED

      o 26 of the original35 are still scheduled for activation;
          [Redacted] (b) (5), [Redacted] (b) (7)(F)
      o


      o




               • NOTE: The above error referencing 23 posts is repeated
                       throughout the report to include:

                               • Page 2, para 2 and footnote 5
                               • Page 3, footnote 12
                               • Page 4, para 1 and para 3
                               • Page 9, para 3 and footnote 32

                               • Page 14, para 1
                               • Page 16, para 2

                               • Page 20, para 1 and 2
• Footnote 5 - The footnote states that one of the plam1ed alternates was
  planned prior to Benghazi. It should be noted thatDS/SPC/MSG never
            [Redacted] (b) (5), [Redacted] (b) (7)(F)    [Redacted] (b) (5), [Redacted] (b) (7)(F)
  counted              as part of the list of 35.           was scheduled for
  activation prior to Benghazi, and as a result, the activation process is
  separate and distinct.

• Footnote 7 - The report states that the Marine Security Augmentation Unit
  (MSAU) was anticipated to be fully staffed by June 2014. MSAU was fully
  staffed with 122 Marines in December 2013.

• Footnote 8- States that DS activated six ne'vv MSG detachments from 2008-
  2012. The oorrect number is seven.
                                 SENSITIVE BUT UNCLASSIFIED




                                       44 

                           SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                         SENSITIVE BUT UNCLASSIFIED

P age 3 :

   • Para 1- States that 25 Posts rated critical or high did not have detachments
     prior to Benghazi. DS/SPC/MSG calculates this number as 17.

            o This report uses current Security Environment Threat List (SETL)
              data to evaluate past decisions on activating detachments. However,
              the SETL did not exist prior to 1986. Additionally , SETL ratings are
              not static. To accurately assess the decision-making regarding any
              particular MSG detachment's activation, one must review the SETL
              rating the year the decision was made to activate the detachment.

            o This report uses the tenus "High Threat Post" and "High Threat/High
              Risk" interchangeably, but these tenllS have distinct and different
              definitions, and the posts included in each group are not mutually
              inclusive.

   • Footnote 12 - Correct numbers should read: (1) 325 Marines for posts
     lacking a detaclunent; (2) 364 Marines to bolster staffing levels at existing
     detachments ; and (3) 122 Marines for MSAU. The total is 811 Marines.

P age4:

   • Para 1- This report calculates what percentage of the posts that are
     scheduled for activations have high or critical threat ratings for political
     violence or terrorism. The calculations are made using only 23 of the 35
     posts for which the Department requested ISP/OCO funds. It would be a
     more accurate representation if the calculations were made using the list of
     35. DS/SPC/MSG calculations show that 16 of the 35 posts had low or
     medium threat in both political violence AND terrorism ratings (46%); and
     19 of the 35 posts had high or critical threat ratings in either political
     violence and/or terrorism (54%).

   • Para 2- The report states that the " imbalance between expansion and high
     threat posts is striking", then goes on to explain that only 16 of the 48
     Marines deployed in 2013 were sent to posts with high threat ratings. This is
     incorrect. The term "expansion" encompasses activations, staffing
                        SENSITIVE BUT UNCLASSIFIED




                                   45 

                       SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





                            SENSITIVE BUT UNCLASSIFIED

       increases, and the creation of the MSAU, yet the 48 Marines mentioned only
       captures activations. [Redacted] (b) (5), [Redacted] (b) (7)(F)

                                                                    Additionally
       122 Marines were re-assigned to fully staff the MSA U. In 2013 , the MSA U
       deployed to 13 locations where additional sectuity augmentation was
       needed.

   •   Footnote 16 - This should be changed to reflect that[Redacted] (b) (5), [Redacted] (b) (7)(F)
       [Redacted] (b) (5), [Redacted] (b) (7)(F)

Page 5:

   • Para 1- The report states that the fmal selection oflower threat posts for
       activations was based in part on the readiness of a post to accept a
       detaclunent, and not on posts threat ratings. This is incorrect. The original
       list of 50 was created based on threat and a variety of other factors with no
       considerations regarding the readiness of a post to accept a detachment.
       Prioritization of which posts would activate frrst did not occur until after the
       listof35 was approved and funding was re-appropriated by Congress.

           o When calculating the list of 50, DS began with the 285 posts that are
             staffed worldwide. Of the 285, 152 had an active MSG detachment at
             the time of the attack on Benghazi. Of the remaining 133, only 63 of
             the posts had an RSO assigned. The 63 posts were assessed and of
             these, the list of 50 was developed.

           o Prioritization was developed as follows:

                   •   Once funding was obtained from Congress, OS and the United
                       States Marine Corps (USMC) calculated how quickly the
                       USMC could train and qualify 1,000 additional MSGs while
                       still maintaining the existing program. lt was detennined the
                       MSG School could schedule five classes a year, and increase

                            SENSITIVE BUT UNCLASSIFIED




                                     46 

                         SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                         SENSITIVE BUT UNCLASSIFIED

                     class sizes to provide up to 50-60 additional MSGs per class.
                     This totaled up to I ,000 new MSGs over a three-year timetable
                     to staff the activations, staffing increases, and the MSAU.
                     Department equities then assessed the 35 posts to detennine
                     what renovations would be needed to prepare posts for the
                     MSGs, and based on how quickly each post could become
                     operational, DS assigned a projected activation date for each
                     post Unfortunately, [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                         and as a result the challenges associated with
                     preparing the housing, there were significant delays at all of
                     these locations.

   Page6:

      • Para 2 - The report states "Marine Security Group detachments." The tem1
        is "Guard" vice "Group."

      • Footnote 20 - Repeats footnote 14. Please see footnote 14 reference.
   Page7:

      • Para 4 - The report lists USMC Embassy Security Group Regional
        Command exercises authority over Marines. This is incorrect The
        Ambassador exercises Operational Authority over the MSG detaclunent, and
        the Regional Command exercises administrative authority.

   Page S:

     • Para 1 - The report uses the tenn " Commander" for this position. Tins
        should be changed to reflect the correct tem1 of "Detachment Commander."
                   [Redacted] (b) (5), [Redacted] (b) (7)(F)
     • Para 2 -
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                         SENSITIVE BUT UNCLASSIFIED




                                   47 

                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                          SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5), [Redacted] (b) (7)(F)




     • Para 3- The paragraph pertaining to the SETL should be changed to reflect
       that hwnan intelligence and technical intelligence are also rated categories
       since both were considered extensively before and after Benghazi (to
       determine the placement of MSG detachments).

  Page 9:

     • Para 2- This report erroneously states that the Department subsequently
       modified the proposal after an OMB decision. This should be changed to
       reflect that the Department did not modify the proposal but was instructed
       by OMB to not use ISP/OCO funds for WHA posts. The list of which posts
       were on the list did not change.

  Page 10:

     • Footnote 38- Erroneously states that six new MSG detachments were
       activated between 2008 and 2012, but this must be changed to seven.

  Page 12:

     • Para 3 -The report states that in 1997 the OIG recommended that DS
       develop a methodology for establishing MSG detachments. On page 10 in
       para 3, the report infers that DS could not provide documentation of an
       established process. It should be noted that as a result of the 1997
       recommendations, DS and USMC added Annex D and J to the MOA
       between the Department and USMC for the Operational Supervision of the
       MSG Program. Atmex J provides procedures for activations and de­
       activations, and Atmex D provides a procedme for establishing MSG
                         SENSITIVE BUT UNCLASSIFIED




                                  48 

                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                       SENSITIVE BUT UNCLASSIFIED

     detachment size, and periodic assessments of the size of existing
     detaclnnents.

Page 14:

  • Table 1 mun bers are incorrect. The ooiTect nwnbers are:

           o New Dets- 325 planned and 60 deployed as of 12/31/2013; and,
                           [Redacted] (b) (5), [Redacted] (b) (7)(F)
           o Increases -


Page 17:

  • Para 2 - This report erroneously states that some HTPs were not prioritized
    for MSG detachments. This is incorrect. All HIP detaclnnents were
    prioritized for activation, and wiJI receive MSGs as soon as a Post 1 and
    housing can be completed by the Bureau of Overseas Buildings Operations
    (OBO).

  • This report erroneously states that the National Security Council established
    the tiruelines for the expansion of the MSG Program. This should be
    changed to reflect that the White House established the timeline.

  • Para 4 - [Redacted] (b) (5), [Redacted] (b) (7)(F)




  • Para 4 - The report states that delays resulting from host country approvals
    is a valid reason why a formal documented process should be created. ll
    should be noted that DS has a formal process that was used prior to
    Benghazi. However, when DS was directed to expand the program by up to
    1,000 MSGs in three years, a more fluid plan was needed that would provide
    the Department with the ability to have space available in concert with the
    USMC's ability to provide the 1,000 new MSGs. This resulted in a plan that
    gave activations a priority, but allowed DS to redirect MSGs to MSAU, or to
                           SENSITIVE BUT UNCLASSIFIED




                                 49 

                     SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED





                               SENSITIVE BUT UNCLASSIFIED

              increase stafftng at existing posts if activation was delayed, and the MSGs
              from a graduating class could not be used for the activation. The expansion
              plan required alterations on an almost weekly basis for the first 12 months of
              the expansion.

           • It should also be noted that DS fully staffed MSAU ahead of schedule.
             MSAU has been operational for I 0 months and has deployed over 30 times.
             This resource has provided the MSG Program with a great deal of flexibility ,
             which is what the ARB felt was lacking in the program.

        Page 19:

           • Table 3 should be changed as follows:
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                               SENSITIVE BUT UNCLASSIFIED




                                         50 

                             SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED





                           SENSITIVE BUT UNCLASSIFIED
[Redacted] (b) (5), [Redacted] (b) (7)(F)




      • Para 2 - DS senior management did not mandate that the expansion of the
         MSG Program be completed within two years. This was an NSC
         requirement placed on the Department. The initial plan developed by the
         Department was for three years, but in Jtme 2013, the NSC advised the
         timetable should be collapsed so that the activations would be completed in
         tv.relve months.




                           SENSITIVE BUT UNCLASSIFIED




                                    51 

                        SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





Approved:    DS - Gregory B. Starr (ok)
            [Redacted] (b) (6)
Drafted:

Analyst:    [Redacted] (b) (6)

Cleared:    [Redacted] (b) (6)




                          52 

              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                                                                                             Appendix C

                                    U.S. Marine Corps Response



From:                Dpye CIV Charles K
To:                  Rmwn Nnl'1'nAn P /OIG) Meade Reqjga (OJG) · Mjller I aurn G· lrvjog William 5 (OIGl
Cc:            [Redacted] (b) (6)                                   Hanjs Sheila MCJY NAIIIN5GEN N141; HOMCAuditliajsons·
               [Redacted] (b) (6)                                 elton CJY e;,rty!e E· Td@le Col Nohonw Lorm C!Y Harls D;

Subject:             U.S. Marine Corps Response to De.pt of State draft audit rpt AUD-SI-1 +XX
Date:                Thursday, June 26, 2014 8: 54:51 AM
Attachments:         lJ s Marine Corps Rec;mnse tp Dept ofState d@ft audjt rnt AliP-SJ-14-XX PDF




Mr. Brown,

Good morning, sir.

Attached Marine Corps comments are provided in response lo Depl of StaLe draft audiL report AUD-SI-14 -XX. The
attached response was coordinated by the Headquruters, U.S. Marine Corps (HQMC) Plans, Policies rutd
O perations (PP&O) Dept Security Division, and the Marine Corps Embassy Security Group.

Thank you for the opportunity to comment on the report.

Vll'Z,

KeilhDove
Head, Audit Coordination
Office of the Staff Director
Headquarters Marine Corps
Pentagon 4B688
Office: [Redacted] (b) (6)
Email: [Redacted] (b) (6)




                                           53
                               SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                               DEPARTMENT OF THE NAVY
                          HEADQUARTERS UNITED STATES MARINE CORPS
                                3000 MARINE CORPS PENTAGON
                                 WASHINGTON, DC 20350·3000          IN REPLY REFER TO:
                                                                    7500
                                                                    DMCS-A
                                                                    24 a.20n
                                                                    -----
   From:      Commandant of the Marine Corps
   To:        Office -of Inspector General , U.S. Department of State

   Subj:     U.S. DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL
             DRAFT AUDIT REPORT AUD-SI-14-XX, AUDIT OF DEPARTMENT OF
             STATE MANAGEMENT OF THE MARINE SECURITY GUARD PROGRAM AND
             PLANS FOR PROGRAM EXPANSION, DATED JUNE 2014

   Ref:       (a) DOS OIG Memo randum o f June 10, 2014

   Encl:      (1 ) Marine Corps Responses

   1. Official responses required by the reference are provided at
   the enclosure.

   2. The Marine Corps appreciates the opportunity to respond to
   the report.

   3. If you have any questions about the responses, please
   contact Mr. Charles Keith Dove, Headquarters, U .S. Marine Corps
   Senior Audit Liaison, email [Redacted] (b) (6)          or phone
[Redacted] (b) (6)



                                     m.~.~
                                         M. R . REGNER
                                         Staff Director

   Copy to:
   NAVINSGEN (N11)
   I GMC
   DC, PP&O




                                  54 

                      SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





   DEPARTMENT OF STATE (DOS) AND THE BROADCASTING BOARD OF
        GOVERNORS, OFFICE OF INSPECTOR GENERAL (OIG)
                DRAFT REPORT DATED JUNE 2014
                    PROJECT# AUD-SI-14-XX

    "AUDIT OF THE DEPARTMENT OF STATE MANAGEMENT OF THE
    MARINE SECURITY GUARD PROGRAM AND PLANS FOR PROGRAM
                         EXPANSION"

                  UNITED STATES MARINE CORPS COMMENTS
                      TO THE DOS RECOMMENDATIONS


RECOMMENDATION 1: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs establish guidance and procedures
to formalize and document the decision process used in the identification and selection of
posts for Marine Security Guard detachments.

USMC RESPONSE: Per the Memorandum of Agreement (MOA), Annex J, between
the Department of State (DoS) and the Marine Corps; "(11) The Secretary of State has
the final authority when deciding where a detachment will be activated, within the
constraints of the Marine Corps' established personnel and funding ceiling."

The Marine Security Guard (MSG) program is in a support role to Bureau of Diplomatic
Security Deputy Assistant Secretary for International Programs (DS/IP). The process
used by DoS to decide on the identification and selection of posts is an internal function
that the Marine Corps does not have input, therefore establishing guidance and
procedures to formalize and document the decision process used in the identification and
selection of posts is purely a DeS matter.

The MSG program, via the Marine Corps Embassy Security Group (MCESG), does
provide assistance in planning for the activation by ensuring certain basic security and
support requirements are met prior to activation. The Marine Corps also recommends
that DoS utilize some kind of formal tracking system software similar to the Marine
Corps Action Tracking System (MCATS). The MCATS allows an originating agency to
assign a task to specific offices with a specific due date. This would improve the DoS
staffing of important tasks to ensure they are properly assigned, completed and returned
to the originating office.

RECOMMENDATION 2: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs establish a process to periodically
reassess the worldwide allocation of Marine Security Guard detachments and adjust the
assignment of Marine Security Guards among posts, as necessary, to maintain optimal
allocation of available Marine Security Guard resources among all posts.




                                                                                        Encl (!)




                              55 

                  SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





USMC R£SPO NSE: Semi-annually, each MSG detachment is fonnally inspected by an
Inspecting Officer (10) from the respective MCESG regional headquarters that is
administratively responsible for that detachment. These inspections include a joint
validation of the correct number of posts that the Marines stand and the correct number of
MSGs it takes to stand those posts; the embassy's Regional Security Officer (RSO) is
tasked by OS to participate in this validation with the 10. Should there be a disagreement
on the post validation, it is referred to Diplomatic Security Service/MSG and
Headquarters, Marine Corps for adjudication.

Should a disagreement remain, the Marine Corps has traditionally deferred to DoS'
manning request. A copy of each semi-annual inspection report is also sent to the DS/IP
and in the past, these reports were also shared with DoS OIG for their situational
awareness, especially before an inspection of a specific embassy/consulate where a
detachment is located. Additionally, each MCESG region commanding officer visits each
detachment at least once a year. During these command visits, the commanding officers
are observing and advising post officials on the utilization of the detachments. Again,
however, DoS has the fmal say on the number of Marines and their locations.

Due to contractual obligations for leases, salaries and other expenses as well as all the
equipment necessary for a detachment that the Mari ne Corps pays for, relocating a
detachment is not something that is done quickly.

Per the National Defense Authorization Act of2013, wherein Congress authorized
expansion of the MSG program, a 122 MSG Security Augmentation Unit (MSAU) was
activated in August 2013 at the MCESG headquarters in Quantico, VA. This unit is
specifically designed to directly support DoS by providing additional security during
periods of increased threat. Able to deploy rapidly, the MSAU has become the Dept. of
State's preferred means of providing a Oexible, scalable and rapidly deployable unit for
post reinforcement and VIP support. As of 19 Jun 2014, theMSAU has performed over
30 missions in support of the DoS.

RECOMMENDATION 3: OIG recommends that the Bureau of Diplomatic Security
incorporate into the Foreign Affairs Manual (12 FAM 430) and the Memorandum of
Agreement with lhe U.S. Marine Corps, the formal guidance and procedures to be used in
the identification and selection of posts for Marine Security Guard detachments and the
periodic reassessment and reallocation of available Marine Security Guard detachments
among all posts.

USMC RESPONSE: As noted in the response to Recommendation I, the decision of
where to locate an MSG detachment is aDoS responsibility, not the Marine Corps';
however, having the DoS decision-making process codified and formalized in the FAM
and MOA would be beneficial for setting guidelines for DS/IP to follow. This would
provide more transparency to the Marine Corps on where and why its manpower is being
deployed to certain locations. It would also assist in assuaging outside scrutiny.




                                              2

                                                                                            Encl (l)




                              56 

                  SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





RECOMMENDATION 4: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs develop a comprehensive, long­
term plan that prioritizes the use of dedicated Marine Security Guard program expansion
resources for those embassies and other diplomatic facilities that are high threat posts.

USMC RRSPONSE: Concur. The Marine Corps budgets for and provides the funding to
DoS for the MSG program. Any long-term plan should include Marine Corps participation
in order to ensure that the requisite funding and manpower requirements can be met.

RECOMMENDATION 5: OIG recommends that the Bureau of Diplomatic Security
Deputy Assistant Secretary for International Programs, in coordination with the Bureau
of Diplomatic Security's High Threat Programs Directorate, shift resources currently
being used to expand MSG detachments from the low and/or medium threat posts to high
threat posts.

USMC RESPONSE: The actual decision of where to put MSG detachments is aDoS
decision. Per the Memorandum of Agreement (MOA) between the Department of State
(DoS) and the Marine Corps; Annex J, paragraph (II) "The Secretary of State has the
fmal authority when deciding where a detachment will be activated, within the
constraints of the Marine Corps' established personnel and funding ceiling."

The Marine Corps is prepared to activate detachments at locations requested by DoS.
The OIG should be aware that per the expansion authorized by Congress and accelerated
by POTUS, the Marine Corps has greatly increased the student through-put at MSG
School. Once graduated, these new MSGs have to be assigned to a post within 14 to 30
days to make room for the next class of student MSGs. While manning all high threat
posts first would be ideal, the reality is that due to the difficulties of the embassy being
able to support the MSGs quickly, and the host nation's willingness to allow their
presence, it is impossible in some cases, for those embassies to be prepared to receive a
detachment. If low or medium threat posts are able to host MSGs, this is preferable to
them sitting at the HQs at Quantico, waiting for a high threat post to prepare, which could
take months or even years. Should DoS be unable to provide locations for MSGs, the
through-put at MSG School would be reduced and the momentum of the expansion will
be slowed.

RECOMMENDATION 6: OIG recommends that the Bureau of Diplomatic Security
conduct a comprehensive staffing and resource assessment of the MSG program and,
based on the assessment results; judiciously allocate appropriated resources to facilitate
compliance with the Benghazi Accountability Review Board report to upgrade security
for personnel at high threat posts.

USMC RESPONSE: Any assessment concerning the MSG program needs to include
Marine Corps participation. Since 1997, the Marine Corps has budgeted for and provided
funding to the DoS to pay for the MSG program. The Marine Corps has budgeted the
following amounts for FY14-$67.2M and FYI 5-$74. 1M. This funding also provides for
five contractor positions at DS/MSG that are supposed to support the MSG program. The


                                             3

                                                                                         Encl (I)




                              57 

                  SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED





Marine Corps feels five positions are sufficient and will not authorize any further use of
Marine Corps funds for contractor support. Furthermore, the Marine Corns strongly
encourages DSITP to analvze funding requirements for courier. billeting and messing
supoort for the MSAU when deployed in support ofDoS requested missions.

ADDITIONAL TECHNICAL COMMENTS: To reiterate, the decision to open a post is
a purely Department of State decision. In support of DoS, the Marine Corps is prepared to
support all activation requests within the constraints of the Marine Corps' established
personnel and funding ceiling. If requested, the Marine Corps stands ready to provide
input and assist DoS in formalizing their procedures and decision making processes in
regards to the MSG program.




                                             4

                                                                                         Encl (1)




                              58 

                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



                                                                                          Appendix D

                       Office of Inspector General Replies to

                  Bureau of Diplomatic Security General Comments 


DS Comments (6/16/2014):

Corrections Suggested in Bureau of Diplomatic Security Response

The report erroneously states there are 1,012 Marines assigned as Marine security guards
(MSGs). On September 11, 2012, the MSG Program had 1,449 authorized positions. Congress
authorized up to 1,000 additional MSGs. This brings the new total up to 2,449 authorized
positions. Recommend that OIG [Office of Inspector General] clarify what it defines as
“assigned” vice “authorized.”

OIG Reply: Wording adjustment was made to address comment.

The report states funding limitations resulted in the reduction of 50 new detachments to 35 new
detachments. The statement is misleading. The Department intended to ask Congress to approve
the Department’s request to reallocate Overseas Contingency Operations (OCO) funds to fund all
50 posts. Before the Department went to Congress to request the reallocation, the Office of
Management and Budget (OMB) determined there were regional limitations to where the OCO
funding could be used. OMB only authorized the Department to request the re-appropriation of
OCO funds for the 35 non-Western Hemisphere Affairs (WHA) posts on the list.

OIG Reply: Wording adjustment was made to address comment.

The report states that ultimately only 23 of the original 35 posts have been scheduled for new
detachments. This is incorrect. The numbers are:

       o Six of the original 35 [Redacted] (b) (5), [Redacted] (b) (7)(F)

                                                                    26 of the original 35 are still
       scheduled for activation;

       o [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                and,

       o [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                            59
                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


                � NOTE: The above error referencing 23 posts is repeated throughout the report
                to include:
                � Page 2, para 2 and footnote 5
                � Page 3, footnote 12
                � Page 4, para 1 and para 3
                � Page 9, para 3 and footnote 32
                � Page 14, para 1
                � Page 16, para 2
                � Page 20, para 1 and 2

OIG Reply: Changes were made in the text and in Footnote 5 to help clarify and/or address
the comment. OIG’s analysis was based on DS’s Marine Security Guard (MSG) planned
activations through calendar year 2014. (Note: OIG updated Table 3 in the final report based
on the June 2014 MSG Program Expansion Schedule.)

The report states that [Redacted] (b) (5), [Redacted] (b) (7)(F) did not have detachments prior to Benghazi.
                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)
DS/SPC/MSG calculates this number as

        o This report uses current Security Environment Threat List (SETL) data to evaluate past
        decisions on activating detachments. However, the SETL did not exist prior to 1986.
        Additionally, SETL ratings are not static. To accurately assess the decision-making
        regarding an particular MSG detachment’s activation, one must review the SETL rating
        the year the decision was made to activate the detachment.

        o This report uses the terms “High Threat Post” and “High Threat/High Risk”
        interchangeably, but these terms have distinct and different definitions, and the posts
        included in each group are not mutually inclusive.

OIG Reply: No change. As they relate to the scope period of the audit, the 2012 SETL threat
ratings provided the best available criteria for assessing the need for security protection over
classified information in the form of an MSG detachment. At that time, the primary mission
of the MSG program was the protection of classified information. OIG identified [Redact
                                                                                     ed] (b)
without MSGs with [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                                     (5),
                            Periodic reassessments of posts’ need for increased security  would
                                                                                     [Redact
assist in the identification of those posts that should be afforded an MSG detachment.
                                                                                     ed] (b)
Footnote 14 defines the term “high threat posts” as used in the report.              (7)(F)

This report calculates what percentage of the posts that are scheduled for activations have high or
critical threat ratings for political violence or terrorism. The calculations are made using only 23
of the 35 posts for which the Department requested ISP/OCO funds. It would be a more accurate
representation if the calculations were made using the list of 35. DS/SPC/MSG calculations
show that 16 of the 35 posts had low or medium threat in both political violence AND terrorism
ratings (46%); and 19 of the 35 posts had high or critical threat ratings in either political violence
and/or terrorism (54%).


                                              60
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



OIG Reply: OIG updated Table 3 of the final report based on DS’s June 2014 MSG Program
Expansion Schedule. Therefore, OIG used the most up-to-date DS figures on post activation
scheduled for the 2-year timeframe. The 35 was originally the number of posts that were
scheduled to be activated during the expansion plan period (at that time over 3 years). The 25
posts represent those posts that were ultimately scheduled for activation during the established
timetable for completing the MSG expansion, as set by the National Security Council. Since
DS has changed the number of posts that were scheduled for activation under the expansion
over the past year, the original 35 have less relevance.

The report states that the “imbalance between expansion and high threat posts is striking,” then
goes on to explain that only 16 of the 48 Marines deployed in 2013 were sent to posts with high
threat ratings. This is incorrect. The term “expansion” encompasses activations, staffing
increases, and the creation of the MSAU, yet the 48 Marines mentioned only captures               [Redacted] (b) (5), [Redacted] (b) (7)(F)
activations. DS also deployed 127 Marines in 2013 to support staffing increases. Of the
             went to posts that fall under the purview of the High Threat Programs Directorate
(DS/HTP). Additionally, 122 Marines were re-assigned to fully staff the MSAU. In 2013, the
MSAU deployed to 13 locations where additional security augmentation was needed.

OIG Reply: Wording adjustment was made to address comment.

The report states that the final selection of lower threat posts for activations was based in part on
the readiness of a post to accept a detachment, and not on posts threat ratings. This is incorrect.
The original list of 50 was created based on threat and a variety of other factors with no
considerations regarding the readiness of a post to accept a detachment. Prioritization of which
posts would activate first did not occur until after the list of 35 was approved and funding was re-
appropriated by Congress.

When calculating the list of 50, DS began with the 285 posts that are staffed worldwide. Of the
285, 152 had an active MSG detachment at the time of the attack on Benghazi. Of the remaining
133, only 63 of the posts had an RSO assigned. The 63 posts were assessed and of these, the list
of 50 was developed.

Prioritization was developed as follows:

 Once funding was obtained from Congress, DS and the United States Marine Corps (USMC)
calculated how quickly the USMC could train and qualify 1,000 additional MSGs while still
maintaining the existing program. It was determined the MSG School could schedule five
classes a year, and increase sizes to provide up to 50-60 additional MSGs per class. This totaled
up to 1,000 new MSGs over a three-year timetable to staff the activations, staffing increases, and
the MSAU. Department equities then assessed the 35 posts to determine what renovations would
be needed to prepare posts for the MSGs, and based on how quickly each post could become
                                                                                       [Redacted] (b) (5), [Redacted] (b) (7)(F)
operational, DS assigned a projected activation date for each post. Unfortunately, all

                       there were significant delays at all of these locations.


                                           61
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



OIG Reply: Additional text was added to the paragraph to address the comment. The
information presented to explain why lower threat posts were selected for activation was based
on information obtained from the former DS/MSG Branch Chief and other MSG program
officials during the conduct of the audit fieldwork.

The report states “Marine Security Group detachments.” The term is “Guard” vice “Group.”

OIG Reply: No change. This statement was a direct quotation from the 2013 National
Defense Authorization Act.

The report lists USMC Embassy Security Group Regional Command exercises authority over
Marines. This is incorrect. The Ambassador exercises Operational Authority over the MSG
detachment, and the Regional Command exercises administrative authority.

OIG Reply: Wording adjustment was made to address comment.

The report uses the term “Commander” for this position. This should be changed to reflect the
correct term of “Detachment Commander.”

OIG Reply: Wording adjustment was made to address comment.

 The report states there are 28 HTPs, and of these, 16 have detachments and three are scheduled
for a MSG detachment. The correct numbers are:
      [Redacted] (b) (5), [Redacted] (b) (7)(F)




OIG Reply: No change. This statement was based on data available during the period of audit
fieldwork and was obtained from the Department of State’s published list of 28 high threat
posts dated November 20, 2013.

 The paragraph pertaining to the SETL should be changed to reflect that human intelligence and
technical intelligence are also rated categories since both were considered extensively before and
after Benghazi (to determine the placement of MSG detachments).

OIG Reply: Wording adjustment made to address the comment.

This report erroneously states that the Department subsequently modified the proposal after an
OMB decision. This should be changed to reflect that the Department did not modify the



                                             62
                                 SENSITIVE BUT UNCLASSIFIED
                                                    SENSITIVE BUT UNCLASSIFIED



proposal but was instructed by OMB to not use ISP/OCO funds for WHA posts. The list of
which posts were on the list did not change.

OIG Reply: Wording adjustment was made to address comments.

The report states that in 1997 the OIG recommended that DS develop a methodology for
establishing MSG detachments. On page 10 in para 3, the report infers that DS could not provide
documentation of an established process. It should be noted that as a result of the 1997
recommendations, DS and USMC added Annex D and J to the MOA between the Department
and USMC for the Operational Supervision of the MSG Program. Annex J provides procedures
for activations and deactivations, and Annex D provides a procedure for establishing MSG
detachment size, and periodic assessments of the size of existing detachments.

OIG Reply: DS’s response has been added to the body of the report.

Table 1 numbers are incorrect. The correct numbers are:
       o New Dets – 325 planned and 60 deployed as of 12/31/2013; and,
       o Increases – [Redacted] (b) (5), [Redacted] (b) (7)(F) as of 12/31/2013
        [Redacted] (b) (5), [Redacted] (b) (7)(F)
                    and 50 to non-HTPs)

OIG Reply: No change to the table, as OIG’s analysis was based on the MSG expansion plans
and actual deployments verified during fieldwork. However, this comment has been included
in Footnote 12 in the report.

This report erroneously states that some HTPs were not prioritized for MSG detachments. This is
incorrect. All HTP detachments were prioritized for activation, and will receive MSGs as soon as
a Post 1 and housing can be completed by the Bureau of Overseas Buildings Operations (OBO).

OIG Reply: No change. OIG’s analysis was based on the plans provided during fieldwork.

This report erroneously states that the National Security Council established the timelines for the
expansion of the MSG Program. This should be changed to reflect that the White House
established the timeline.

OIG Reply: No change. The National Security Council is part of the White House.

This report lists [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                    Negotiations are ongoing, and DS will
move forward with the activations as soon as approval is granted.

OIG Reply: No change. This sentence is intended to pertain to posts under the Directorate of
High Threat Programs.




                                                                63
                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



The report states that [Redacted] (b) (5), [Redacted] (b) (7)(F)     is a valid reason why a formal
documented process should be created. It should be noted that DS has a formal process that was
used prior to Benghazi. However, when DS was directed to expand the program by up to 1,000
MSGs in three years, a more fluid plan was needed that would provide the Department with the
ability to have space available in concert with the USMC’s ability to provide the 1,000 new
MSGs. This resulted in a plan that gave activations a priority, but allowed DS to redirect MSGs
to MSAU, or to increase staffing at existing posts if activation was delayed, and the MSGs from
a graduating class could not be used for the activation. The expansion plan required alterations
on an almost weekly basis for the first 12 months of the expansion.

It should also be noted that DS fully staffed MSAU ahead of schedule. MSAU has been
operational for 10 months and has deployed over 30 times. This resource has provided the MSG
Program with a great deal of flexibility, which is what the ARB felt was lacking in the program.

OIG Reply: No change. OIG’s analysis was based on information verified during the conduct
of audit fieldwork.




                                          64
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



        Table 3 should be changed as follows:
[Redacted] (b) (5), [Redacted] (b) (7)(F)




                                              65 

                                  SENSITIVE BUT UNCLASSIFIED
                                                SENSITIVE BUT UNCLASSIFIED



OIG Reply: Adjustments were made as appropriate to address DS’s comments. (Note: OIG
updated Table 3 of the final report based on DS’s June 2014 MSG Program Expansion
Schedule.)

DS senior management did not mandate that the expansion of the MSG Program be completed
within two years. This was an NSC requirement placed on the Department. The initial plan
developed by the Department was for three years, but in June 2013, the NSC advised the
timetable should be collapsed so that the activations would be completed in twelve months.

OIG Reply: Wording adjustment was made to address comments.

Footnote 5 - The footnote states that one of the planned alternates was planned prior to                 [Redacted] (b) (5), [Redacted] (b) (7)(F)
Benghazi. It should be noted that DS/SPC/MSG never counted
    [Redacted] (b) (5), [Redacted] (b) (7)(F)
                                                                            as part of the list of
35.             was scheduled for activation prior to Benghazi, and as a result, the activation
process is separate and distinct.

OIG Reply: No change in the footnote. This distinction had been noted in the footnote to the
                                                             [Redacted] (b) (5), [Redacted] (b) (7)(F)

draft report that one of the three alternate posts           was not on the original list of 35
posts and was planned for activation prior to the expansion.

Footnote 7 - The report states that the Marine Security Augmentation Unit
(MSAU) was anticipated to be fully staffed by June 2014. MSAU was fully staffed with 122
Marines in December 2013.

OIG Reply: Wording adjustment was made to address the comment.

Footnote 8 - States that DS activated six new MSG detachments from 2008-2012. The correct
number is seven.

OIG Reply: Additional text was added to the footnote to address the comment. During the
audit, OIG requested a list of MSG detachments activated between 2008 and 2012. DS                                                      [Redacted] (b) (5), [Redacted] (b) (7)(F)

responded by identifying six posts that were activated during that period:


Footnote 12 – Correct numbers should read: (1) 325 Marines for posts lacking a detachment; (2)
364 Marines to bolster staffing levels at existing detachments; and (3) 122 Marines for MSAU.
The total is 811 Marines.

OIG Reply: Additional text was added to the footnote to address the comment. OIG used May
2013 Marine Corps numbers provided during the conduct of audit fieldwork.

Footnote 16 - This should be changed to reflect that [Redacted] (b) (5), [Redacted] (b) (7)(F)




                                                            66
                                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



OIG Reply: Additional text was added to the footnote to address the comment. The data
contained in the footnote was based on information provided by DS officials during the
conduct of audit fieldwork.

Footnote 20 - Repeats footnote 14. Please see footnote 14 reference.

OIG Reply: No change. While the information in both footnotes is the same, the footnotes
are contained in two different sections of the report: the executive summary section of the
report and the background section of the report. The footnotes were retained to provide
clarity.

Footnote 38 - Erroneously states that six new MSG detachments were activated between 2008
and 2012, but this must be changed to seven.

OIG Reply: Additional text was added to the footnote to address the comment. During the
audit fieldwork, OIG requested a list of MSG detachments activated between 2008 and 2012.
                                                                              [Redacted] (b) (5), [Redacted] (b) (7)(F)

In response, DS identified six posts that had been activated during this period:




                                         67
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Major Contributors to This Report

Regina Meade, Director
Security and Intelligence Division
Office of Audits

William S. Irving, Audit Manager
Security and Intelligence Division
Office of Audits

Laura G. Miller, Management Analyst
Security and Intelligence Division
Office of Audits

Upeksha Van der Merwe, Senior Auditor
Security and Intelligence Division
Office of Audits

Celia Powell, Auditor
Security and Intelligence Division
Office of Audits




                                          68
                              SENSITIVE BUT UNCLASSIFIED
    SENSITIVE BUT UNCLASSIFIED





     FRAUD, WASTE, ABUSE,

     OR MISMANAGEMENT

    OF FEDERAL PROGRAMS 

       HURTS EVERYONE. 

 
             CONTACT THE

     OFFICE OF INSPECTOR GENERAL 

                HOTLINE

          TO REPORT ILLEGAL 

       OR WASTEFUL ACTIVITIES: 

                      
             202-647-3320
             800-409-9926
          oighotline@state.gov
              oig.state.gov

       Office of Inspector General
        U.S. Department of State 

             P.O. Box 9778 

         Arlington, VA 22219





    SENSITIVE BUT UNCLASSIFIED

